No. 20-________
In the

Supreme Court of the United States
________________

EDWARD J. KOSINSKI,
v.

Petitioner,

UNITED STATES OF AMERICA,
________________

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit
________________
PETITION FOR WRIT OF CERTIORARI
________________
ALEXANDRA A.E. SHAPIRO
Counsel of Record
DANIEL J. O’NEILL
SHAPIRO ARATO BACH LLP
500 Fifth Avenue, 40th Floor
New York, New York 10110
(212) 257-4880
ashapiro@shapiroarato.com
Counsel for Petitioner

February 19, 2021

i
QUESTIONS PRESENTED
1. Whether a simple agreement to keep
information confidential by itself can establish the
fiduciary or similar relationship of “trust and
confidence” required to establish criminal insidertrading fraud.
2. Whether the Second Circuit’s open-ended, caseby-case approach to the duty element of insidertrading fraud is unconstitutionally vague because it
fails to give fair warning of when a relationship
between two parties involves the “trust and
confidence” necessary to proscribe trading.
3. Whether, if a jury was erroneously instructed
on an element of a criminal offense, a reviewing court
may affirm the conviction based upon a theory of guilt
that the jury never considered or found proven beyond
a reasonable doubt.

ii
PARTIES TO THE PROCEEDING
Edward J. Kosinski is the petitioner here and was
the defendant-appellant in the court of appeals. The
United States of America is the respondent here and
was the appellee in the court of appeals.

iii
RELATED PROCEEDINGS
The proceedings directly related to this petition
are:
United States v. Kosinski, No. 16-cr-148 (VLB), United
States District Court for the District of
Connecticut. Judgment entered October 12, 2018.
United States v. Kosinski, No. 18-3065, United States
Court of Appeals for the Second Circuit. Judgment
entered September 22, 2020.

iv
TABLE OF CONTENTS

Page

QUESTIONS PRESENTED ............................................ i
PARTIES TO THE PROCEEDING ........................... ii
RELATED PROCEEDINGS ..................................... iii
TABLE OF AUTHORITIES ...................................... vi
INTRODUCTION ....................................................... 1
OPINIONS BELOW ................................................... 4
JURISDICTION ......................................................... 4
STATUTORY AND REGULATORY
PROVISIONS INVOLVED ................................... 4
STATEMENT OF THE CASE ................................... 4
A.

Factual Background ........................................ 4

B.

The Indictment and Trial .............................. 10

C.

The Second Circuit’s Decision ....................... 12

REASONS FOR GRANTING CERTIORARI .......... 16
I.

The Second Circuit’s Ruling That
A Confidentiality Agreement By
Itself Establishes A Duty Of
“Trust And Confidence” Warrants
This Court’s Review ....................................... 18

II.

The Second Circuit’s Standardless
Approach To The Duty Element Is
Unconstitutionally Vague And Injects
Uncertainty Into The Securities
Markets .......................................................... 26

v
TABLE OF CONTENTS
(continued)
Page
III.

The Harmless-Error Ruling Defies
This Court’s Constitutionally-Based
Teachings On Appellate Review Of
Criminal Convictions ..................................... 31

CONCLUSION ......................................................... 36
APPENDICES:
Appendix A: Opinion of the United States
Court of Appeals for the Second Circuit
(September 22, 2020) .......................................... 1a
Appendix B: Decision of the United States
District Court for the District of Connecticut
Denying Motion to Dismiss the Indictment
(August 16, 2017) .............................................. 41a
Appendix C: Decision of the United States
District Court for the District of Connecticut
Denying Motion for Judgment of Acquittal
and Motion for New Trial (May 11, 2018) ........ 57a
Appendix D: Relevant Statutes and
Regulations ........................................................ 73a
Appendix E: Transcript of Jury Instructions
of the United States District Court for the
District of Connecticut (November 27, 2017)
[excerpt] ............................................................. 76a

vi
TABLE OF AUTHORITIES

Page(s)

CASES
Birnbaum v. Birnbaum,
73 N.Y.2d 461 (1989) ........................................... 28
Carpenter v. United States,
484 U.S. 19 (1987) ............................................... 22
Chapman v. California,
386 U.S. 18 (1967) ............................................... 32
Chiarella v. United States,
445 U.S. 222 (1980) ..................................... passim
City of Chicago v. Morales,
527 U.S. 41 (1999) ................................................. 2
Cleveland v. United States,
531 U.S. 12 (2000) ............................................... 27
Dirks v. SEC,
463 U.S. 646 (1983) ..................................... passim
Dowling v. United States,
473 U.S. 207 (1985) ....................................... 21, 27
Dunn v. United States,
442 U.S. 100 (1979) ............................................. 34
Jacked Up, L.L.C. v. Sara Lee Corp.,
854 F.3d 797 (5th Cir. 2017) ............................... 25
Johnson v. United States,
576 U.S. 591 (2015) ............................................. 26

vii
TABLE OF AUTHORITIES
(continued)
Page(s)
Kolender v. Lawson,
461 U.S. 352 (1983) ............................................. 26
M. Kraus & Bros. v. United States,
327 U.S. 614 (1946) ............................................. 26
McCormick v. United States,
500 U.S. 257 (1991) ....................................... 17, 33
McDonnell v. United States,
136 S. Ct. 2355 (2016) ......................................... 32
McNally v. United States,
483 U.S. 350 (1987) ............................................. 33
Meinhard v. Salmon,
249 N.Y. 458 (1928) ............................................. 21
Morrison v. Nat’l Australia Bank Ltd.,
561 U.S. 247 (2010) ............................................... 3
Musacchio v. United States,
136 S. Ct. 709 (2016) ........................................... 32
Neder v. United States,
527 U.S. 1 (1999) ..................................... 31, 32, 33
Pinter v. Dahl,
486 U.S. 622 (1988) ............................................. 17
Salman v. United States,
137 S. Ct. 420 (2016) ..................................... 19, 27

viii
TABLE OF AUTHORITIES
(continued)
Page(s)
SEC v. Cuban,
620 F.3d 551 (5th Cir. 2010) ............................... 25
SEC v. Cuban,
634 F. Supp. 2d 713 (N.D. Tex. 2009)................. 25
Sessions v. Dimaya,
138 S. Ct. 1204 (2018) ......................................... 26
Skilling v. United States,
561 U.S. 358 (2010) ................................. 22, 29, 30
Staples v. United States,
511 U.S. 600 (1994) ............................................. 29
Stromberg v. People of State of Cal.,
283 U.S. 359 (1931) ............................................. 32
Sullivan v. Louisiana,
508 U.S. 275 (1993) ....................................... 31, 35
United States v. Afriyie,
929 F.3d 63 (2d Cir. 2019) .................................. 24
United States v. Annamalai,
939 F.3d 1216 (11th Cir. 2019) ........................... 33
United States v. Chestman,
947 F.2d 551 (2d Cir. 1991)..................... 13, 15, 24
United States v. Dann,
652 F.3d 1160 (9th Cir. 2011) ............................. 34

ix
TABLE OF AUTHORITIES
(continued)
Page(s)
United States v. Davis,
139 S. Ct. 2319 (2019) ......................................... 26
United States v. Falcone,
257 F.3d 226 (2d Cir. 2001)........................... 13, 24
United States v. L. Cohen Grocery Co.,
255 U.S. 81 (1921) ......................................... 17, 30
United States v. Mendez,
528 F.3d 811 (11th Cir. 2008) ............................. 34
United States v. Munguia,
704 F.3d 596 (9th Cir. 2012) ............................... 33
United States v. O’Hagan,
521 U.S. 642 (1997) ..................................... passim
United States v. Serawop,
410 F.3d 656 (10th Cir. 2005) ............................. 33
United States v. Sineneng-Smith,
140 S. Ct. 1575 (2020) ......................................... 34
United States v. Winfield,
997 F.2d 1076 (4th Cir. 1993) ............................. 34
United States v. X-Citement Video, Inc.,
513 U.S. 64 (1994) ............................................... 29
Yates v. United States,
574 U.S. 528 (2015) ............................................. 27

x
TABLE OF AUTHORITIES
(continued)
STATUTES

Page(s)

15 U.S.C. §78j(b) ............................................... passim
28 U.S.C. §1254 .......................................................... 4
REGULATIONS
17 C.F.R. §240.10b–5 ........................................ passim
21 C.F.R. §54.2............................................................ 8
21 C.F.R. §54.4............................................................ 8
21 C.F.R. §312.60........................................................ 6
OTHER AUTHORITIES
John C. Coffee, Jr., The ‘Tip’ of the
Bunny’s Nose: Sniffing Out Crime
Where None Exists, LEGAL TIMES,
Sept. 25, 1989, at 34 ............................................ 26

INTRODUCTION
No federal criminal statute expressly proscribes
“insider trading.” Instead, such conduct is typically
prosecuted under the anti-fraud provisions in Section
10(b) of the Securities Exchange Act of 1934 and SEC
Rule 10b–5. But this Court established long ago that
these provisions create no general duty to refrain from
trading on material nonpublic information. Rather, to
prove a violation the government must establish that
the trades were fraudulent—and fraud requires a
breach of a duty arising from a specific relationship
between two parties. This Court has repeatedly held
that only a fiduciary or similar relationship of “trust
and confidence” creates such a duty.
These clear and firmly established principles have
marked the line between lawful and unlawful trading
since this Court’s decision in Chiarella v. United
States, 445 U.S. 222 (1980). For over four decades,
investors and market professionals have relied on this
established doctrine. But the Second Circuit defied
this Court’s rulings, and in three distinct ways.
Unless this Court intervenes, the Second Circuit’s
decision threatens to upend and muddy insidertrading law and create uncertainty for investors,
market professionals, and the securities markets.
First, the decision below would criminalize conduct
that this Court has held is not fraudulent under
§10(b). This Court has repeatedly and clearly defined
the relationship required for criminal fraud: It must
be a fiduciary or similar relationship of “trust and
confidence.” This Court has never suggested that an
agreement between arm’s-length counterparties to
maintain information in confidence, without more,
suffices. Yet the Second Circuit held that a mere

2
promise of “confidentiality” establishes the requisite
duty, even without any other indicia of fiduciary
status or trust. That ruling is irreconcilable with this
Court’s decisions, conflicts with the law of another
circuit, and significantly expands the insider-trading
crime.
Second, the Second Circuit failed to articulate any
clear, definitive standard for determining when the
requisite fiduciary or fiduciary-like relationship
exists. The court instead served up a smorgasbord of
competing formulations that “authorize and even
encourage arbitrary and discriminatory enforcement”
by inviting prosecutors to pick and choose whichever
options best suit their case. City of Chicago v. Morales,
527 U.S. 41, 56 (1999). This post hoc, case-by-case
approach deprives investors of any fair notice as to
when they can trade on information they have
obtained.
And some of the factors the court
identified—like two parties’ need to remain
“independent”—actually suggest the absence of
fiduciary-like duties. The result is an incoherent and
indeterminate jumble in an area of the law that
demands clarity and certainty to ensure the smooth
operation of the securities markets.
Third, the government secured this conviction
based on its theory that an agreement to keep
information confidential necessarily makes trading on
that information fraudulent.
The district court
instructed the jury to find the “duty of trust and
confidence” element satisfied if there was proof of a
confidentiality agreement, and to look no further. Yet
the Second Circuit held that any error in this
erroneous instruction was harmless because the court
of appeals believed the facts supported a fiduciary-like

3
relationship under other theories that it hypothesized
could apply. None of those other theories was ever
submitted to, or considered by, the jury; the only
finding the jury necessarily made under the erroneous
instruction was that there was a fiduciary or similar
duty because of a confidentiality agreement. The
Second Circuit’s holding therefore violates the
defendant’s Sixth Amendment right to a jury trial and
conflicts with this Court’s rulings on a basic principle
of appellate review: A criminal conviction tainted by
instructional error cannot be affirmed on a basis that
the jury never considered or found proven beyond a
reasonable doubt.
The questions presented are exceedingly
important. The Second Circuit’s malleable conception
of the duty of trust and confidence provides no
ascertainable standard.
It invites enterprising
prosecutors to rewrite myriad relationships that the
parties never contemplated would impose any
fiduciary or similar duties. Left unchecked, the
decision below is likely to impair the efficient
functioning of the securities markets, which require
insider-trading rules to be clear and certain. Most
insider-trading prosecutions are (or could be) filed in
the Second Circuit, as nearly every securities
transaction touches New York. Other circuits often
defer to the Second Circuit because of its expertise in
securities law. See Morrison v. Nat’l Australia Bank
Ltd., 561 U.S. 247, 260 (2010). Second Circuit rulings
in this area thus tend to have nationwide influence,
making this Court’s intervention critical.
The petition for certiorari should be granted.

4
OPINIONS BELOW
The Second Circuit’s opinion is reported at 976
F.3d 135 and reprinted at Pet.App.1a-40a. The
district court’s opinion denying Petitioner’s motion to
dismiss the indictment is not reported but is available
at 2017 WL 3527694 and reprinted at Pet.App.41a56a, and its opinion denying Petitioner’s motions for a
judgment of acquittal and for a new trial likewise is
not reported but is available at 2018 WL 9988663 and
reprinted at Pet.App.57a-72a.
JURISDICTION
The Second Circuit issued its opinion on
September 22, 2020. On March 19, 2020, this Court
issued an order extending the time to file petitions for
certiorari to 150 days, making the deadline for this
petition February 19, 2021.
This Court has
jurisdiction under 28 U.S.C. §1254(1).
STATUTORY AND REGULATORY
PROVISIONS INVOLVED
The relevant statutory and regulatory provisions
are reproduced at Pet.App.73a-75a.
STATEMENT OF THE CASE
A.

Factual Background

Dr. Edward J. Kosinski was one of New England’s
leading cardiologists and treated patients in southern
Connecticut for over 40 years. He was highly regarded
for his clinical expertise and participated in several
drug trials over the course of his career. This case
relates to securities trades Kosinski placed in 2014
while working on a clinical trial for a cardiovascular
drug that Regado Biosciences, Inc. (“Regado”), a

5
publicly-traded
developing.

biopharmaceutical

company,

was

Kosinski was not a Regado employee, nor did he
have any direct interactions with Regado or its
personnel. Instead, Kosinski served as a “principal
investigator” in Regado’s clinical trial without having
to depart his daily cardiology practice.
He
administered Regado’s drug to those of his patients
who elected to participate in the study and dutifully
recorded their responses to the medication. But his
primary duty was to treat and care for his patients,
not to serve Regado.
Kosinski’s responsibilities during the clinical trial
were defined in a contract he entered with the third
party that administered the trial for Regado. The
contract described Kosinski as an “independent
contractor” and disclaimed any suggestion that he was
acting as Regado’s agent or fiduciary. It required
Kosinski to keep information he learned through the
study confidential—which he did—but did not impose
any restraints on his use of the information, whether
in treating his patients or otherwise.
1. The REG1 Anticoagulation System (“REG1”)
was Regado’s experimental drug therapy to prevent
blood clotting in patients undergoing heart
procedures. Pet.App.4a-5a. In 2005, to obtain FDA
approval for REG1, Regado launched a multi-phase
clinical trial which it hoped would demonstrate the
drug’s safety and efficacy. However, at Phase II three
patients experienced serious allergic reactions.
C.A.App.91-92. Regado designed its Phase III trial to
closely monitor allergic reactions and identify factors
that might be contributing to their incidence.
C.A.App.93-96.

6
To manage the Phase III trial, Regado formed a
small team that included its own high-level personnel
as well as individuals from the Cleveland Clinic
Foundation, a research organization that Regado
engaged to administer the trial on its behalf.
Pet.App.8a n.1. Because of their central role in the
trial, members of the trial management team had
access to all patient data generated at each clinical
site, including details of every adverse event, case
reports for every patient, and all other data collected
during the trial. C.A.App.109-10, 188-89. Given the
obvious sensitivity of this information, Regado
expressly prohibited management team members
from owning or trading Regado’s securities.
C.A.App.194-95, 322, 337.
Kosinski was not part of the Phase III trial
management team. He served as one of hundreds of
principal investigators that interfaced directly with
patients, and his involvement was limited to a single
clinical site. Pet.App.3a, 5a. The function of an
investigator in a clinical trial is to enroll patients in
the study, administer the drug to them, and monitor
their responses—positive or negative. Pet.App.58a59a. Principal investigators are not privy to patient
data from clinical sites other than their own and thus
learn little about the overall trial until that
information is made public.
C.A.App.186-89.
Although such investigators must report their
findings to the drug company sponsoring the trial and
adhere to the sponsor’s protocol, the sponsor’s chief
interest is in obtaining FDA approval to sell its
product. C.A.App.190-91. Investigators like Kosinski,
by contrast, are charged with “protecting the rights,
safety, and welfare of subjects under the[ir]...care.” 21
C.F.R. §312.60. Accordingly, their duty remains “first

7
and foremost” to their patients, not the drug company.
C.A.App.185-91.
2. In June 2013, the Cleveland Clinic Foundation
approached Kosinski about serving as a principal
investigator in Regado’s Phase III trial. To facilitate
these discussions, Kosinski was asked to and did sign
a Confidential Disclosure Agreement (“CDA”). The
CDA permitted him to receive the trial protocol and
other confidential information “for the purpose of
evaluating [his] interest in participating in [the]
clinical trial.” Pet.App.5a, 58a. The CDA required
Kosinski to keep the information confidential and
stated expressly that Kosinski was not to “use, disclose
or exploit [the] Proprietary Information for [his] own
benefit.” Pet.App.58a (emphasis added). Kosinski
complied with the CDA while it was in effect. As
explained below, long before the trades that are at
issue in this case, the CDA was superseded by a
different agreement. The latter agreement, however,
imposed no similar restrictions on Kosinski’s use of
any confidential information. Pet.App.59a.
In January 2014, Kosinski agreed to participate in
the trial as the principal investigator at a hospital site
in Bridgeport, Connecticut, and entered a new
contract, a Clinical Study and Research Agreement
(“CSRA”), with the Cleveland Clinic Foundation.
Pet.App.6a, 58a. The CSRA expressly superseded the
CDA. Pet.App.21a n.6. The CSRA emphasized
Kosinski’s independence. It specified that, in his role
as a principal investigator, he was “an independent
contractor and not an agent, joint venturer, or partner
of [Regado],” and that he lacked any authority to
legally bind Regado. C.A.App.232. Kosinski agreed to
maintain in “strict confidence” all confidential

8
information that he received in the course of the study.
Pet.App.6a. But in sharp contrast to the CDA (and
restrictions Regado imposed on the high-level
managers running the clinical study), the CSRA
contained no restrictions on Kosinski’s use of Regado’s
confidential information.
It did not directly or
indirectly bar him from using that information to
trade Regado’s securities. Pet.App.59a. The same
lawyer drafted both the CSRA and the CDA on
Regado’s behalf. C.A.App.227, 245.
The CSRA also imposed additional obligations on
Kosinski, which were designed to ensure his
commitment to patient safety and independence from
Regado. For example, principal investigators were
required to complete Form FDA 1572, in which they
affirmed that they would not administer REG1 to
patients without informed consent and would do
whatever necessary—even if it meant departing from
the trial protocol—“to protect the safety, rights, or
welfare of [test] subjects.” C.A.App.230, 290. In
addition, all principal investigators were required to
disclose whether they had a financial interest in
Regado that exceeded $50,000. Pet.App.6a, 60a; see 21
C.F.R. §§54.2(b), 54.4(a)(3)(iv).
But nothing
prohibited investigators from trading Regado
securities during the trial; investigators were merely
obliged to update their disclosure if, as a result of new
acquisitions or otherwise, the value of their interest
surpassed the specified threshold.
3. Kosinski maintained several brokerage
accounts with assets totaling over $11 million.
Pet.App.3a. In October 2013, he began purchasing
Regado stock. Pet.App.7a. He eventually purchased

9
40,000 shares
Pet.App.60a.

worth

approximately

$210,000.

Kosinski sold his Regado shares on June 30, 2014.
Pet.App.8a. The previous afternoon, all principal
investigators had received an email from the REG1
trial management team instructing them not to enroll
new patients due to recent allergic reactions that had
been observed. Id. Three days later, Regado issued a
press release announcing that its data safety
management board (“DSMB”) had “initiated an
unplanned review of data” and that enrollment was
paused. C.A.App.267.1 Regado’s share price dropped
by 58%. Pet.App.8a.2
On July 31, Kosinski purchased fifty put options.
Pet.App.9a. Two days earlier the trial management
team had emailed the principal investigators “[i]n
accordance with the Good Clinical Practice and
scientific national regulatory requirements” to alert
them to an anaphylactic reaction that resulted in a
patient’s death. C.A.App.253-56. The email indicated
that the trial was on hold “pending a DSMB
assessment.” C.A.App.256. On August 25, 2014,
Regado issued a press release announcing that the
trial was permanently halted because of the
“frequency and severity” of allergic reactions, and the
next day Regado’s share price dropped substantially.

The DSMB reviews adverse safety-related events and advises
the sponsor whether to continue with the drug trial.
C.A.App.349.
1

2 The amount of losses Kosinski’s trades avoided was hotly
disputed at sentencing, but the district court adopted the
government’s figure of $160,000.

10
Pet.App.9a. Two days later, Kosinski exercised his
put options, earning $3,300 in profit. Id.
Kosinski had accurately certified at the beginning
of the trial that the value of his Regado equity interest
was below $50,000. C.A.App.137-39, 298. Although
he neglected to amend that statement upon buying
additional shares, at the end of the study he received
a reminder of that requirement and promptly
submitted a new form to Regado, disclosing that his
stock holdings had, in fact, exceeded $50,000.
C.A.App.302-03.
B.

The Indictment and Trial

The government charged Kosinski with two counts
of securities fraud in violation of Securities Exchange
Act §10(b) and SEC Rule 10b–5, one for the sale of
Regado shares in June 2014, and the second for the
put options Kosinski purchased and exercised later
that summer. Throughout the case—from indictment
through
post-trial
motions—the
government
acknowledged that it had to prove Kosinski owed
Regado a “duty of trust and confidence” and breached
that duty by trading. E.g., C.A.App.17-18, 21, 44, 35356. At each stage, the central disputed issue was
whether, as the government asserted, the CSRA’s
confidentiality provision was in itself sufficient to
establish that duty.
For example, the only allegation in the indictment
supporting Kosinski’s alleged duty was that the CDA
and CSRA required Kosinski to “not disclose” but
“maintain in strict confidence” all confidential
information he received. C.A.App.16. Kosinski moved
to dismiss on the ground that the indictment thus
failed to allege a fiduciary or fiduciary-like

11
relationship that would have precluded him from
trading Regado securities. The government opposed,
contending
that
“an
explicit
confidentiality
agreement, by its own terms, is sufficient to establish
the requisite duty for…insider trading.” C.A.App.2829. The district court adopted the government’s
arguments and denied the motion. Pet.App.41a-56a.
Trial began on November 13, 2017 and lasted five
days. After the government rested, Kosinski moved
for a judgment of acquittal, and the district court
reserved decision. C.A.App.166-67. Kosinski then
called an expert witness who testified about the
structure of clinical trials and that a clinical
investigator generally has access to patient data only
from his own site, which explains why investigator
contracts are less restrictive than those binding trial
managers. E.g., C.A.App.185-89.
The government’s closing arguments focused the
jury intently on the CSRA. The prosecutors argued
that the contract’s use of “strict confidence” connotes
something more than “just keep it confidential” and
“also means that Dr. Kosinski had a duty of trust and
confidence to Regado,” and that the jury need not look
any further than “a plain reading of just the words on
the page of the CSRA” to resolve the duty question.
C.A.Govt.App.991, 995, 1065.
The district court’s jury instructions fully endorsed
this prosecution argument that the confidentiality
provision dispositively proved the duty element. In
charging that the government had to prove Kosinski
owed Regado “a duty of trust and confidence,” the
court—over Kosinski’s objection, e.g., C.A.App.20810—instructed the jury that a confidentiality

12
agreement is, without more, sufficient to establish the
requisite duty:
The Government must establish beyond a
reasonable doubt that Dr. Kosinski had a duty
of trust and confidence to Regado. That means
that he was reasonably expected to keep the
material information at issue confidential or at
least that the relationship between the
defendant and Regado reasonably implied such
a duty…. [A] person has a requisite duty of trust
and confidence whenever a person agrees to
maintain information in confidence.
Pet.App.78a-79a (emphasis added).
Since the
confidentiality clause in the CSRA was undisputed
and indisputable, the inevitable consequence of this
instruction was to direct a finding for the government
on the duty of trust and confidence, a critical element
of the offense.
The jury returned a guilty verdict on both counts.
Pet.App.10a. The district court subsequently denied
Kosinski’s Rule 29 motion for acquittal and his posttrial motions. Pet.App.57a-72a. The court sentenced
Kosinski principally to six months’ imprisonment, but
granted bail pending appeal. Pet.App.4a.3
C.

The Second Circuit’s Decision

Kosinski’s primary contention on appeal was that
the CSRA’s confidentiality clause could not create the
requisite duty of “trust and confidence.” As a result,
he argued, the evidence on the duty element was
legally insufficient to sustain his convictions; the jury
instruction was fatally flawed; and at a minimum, he
3

Kosinski is currently due to surrender on March 31, 2021.

13
was entitled to a new trial because the flawed
instruction told the jury that the government’s burden
of proving the duty element is satisfied based on a
mere confidentiality agreement. The Second Circuit
affirmed the conviction in an opinion authored by
Judge Korman of the Eastern District of New York
(sitting by designation). On the pivotal question in the
appeal, the court ruled that a confidentiality
agreement by itself can satisfy the duty element.
The Second Circuit concluded that there was
sufficient evidence of a “fiduciary-like relationship
with Regado” because “Kosinski expressly agreed to
keep Regado’s information confidential” in the CSRA.
Pet.App.17a. The court explained that under two
prior Second Circuit decisions—United States v.
Chestman, 947 F.2d 551 (2d Cir. 1991) (en banc), and
United States v. Falcone, 257 F.3d 226 (2d Cir. 2001)—
such an agreement was all that was needed to
establish the requisite duty. The court stated that the
Second Circuit “has held that…an ‘explicit acceptance
of a duty of confidentiality’ is itself sufficient to
establish the necessary fiduciary duty of trust and
confidence.” Pet.App.19a (quoting Falcone, 257 F.3d
at 234, and citing Chestman, 947 F.2d at 571); see also
Pet.App.28a.
The court went on to introduce a compilation of
additional theories, tests, and factors that had never
been presented to or considered by the jury. Under
this amalgam of theoretical bases for creating the
requisite duty, the court purported to have itself found
a fiduciary-like relationship. Additionally, in finding
any error harmless, the court ignored that the jury’s
finding could not possibly have been based on any one
of those theories, tests, or factors, because the jury had

14
been instructed to look no further than the
confidentiality agreement to find proof of the duty
element.
For instance, the court concluded that Kosinski
qualified as a “temporary insider” of Regado,
Pet.App.12a-17a, invoking a footnote in Dirks v. SEC,
463 U.S. 646, 655 n.14 (1983). But this Court has not
developed the temporary-insider theory in any
subsequent case, and, as the Second Circuit
acknowledged, the theory relates to classical insidertrading fraud, not the misappropriation doctrine
under which the government prosecuted this case.
Pet.App.14a-15a.4 That is undoubtedly why the
government never argued—not to the jury, not to the
district court, not to the court of appeals—that
Kosinski qualified as a “temporary insider.” The
Second Circuit injected that theory entirely on its own.
The court also posited various other alternative
grounds for finding Kosinski bound by “fiduciary-like”
duties to Regado; none of these had been presented to
the jury either. Pet.App.17a-30a. For example, the
court found that Regado “entrusted” Kosinski to
properly administer REG1 to patients and that
Kosinski “serv[ed]…the interests” of Regado to the
extent his “experience and skill” made FDA approval
more likely. Pet.App.17a-18a.
In addition, the court found Kosinski’s
independence from Regado indicative of a fiduciary
4 The classical theory concerns the duty officers, directors, and
other corporate “insiders” owe to the shareholders of the company
that issued the securities. United States v. O’Hagan, 521 U.S.
642, 651-52 (1997).
“Temporary insiders” are “attorneys,
accountants, consultants, and others who temporarily become
fiduciaries of a corporation.” Id. at 652.

15
relationship. It noted that Kosinski’s “independent
assessment [was] required for FDA approval,” that
“Regado relied upon Kosinski’s professional
independence,” and that Kosinski served Regado’s
interests by not being “aligned” with the company.
Pet.App.18a-20a, 24a. At the same time, the court
refused to afford any weight to the CSRA’s clear
statement that Kosinski was “an independent
contractor and not an agent” of Regado. Doing so, the
court claimed, “would permit unlawful insider
trading”; it even suggested that the clause could be
struck as against public policy. Pet.App.21a-22a &
n.7.
The Second Circuit also endorsed multiple varying
formulations of fiduciary duty, including two that
were quoted in Chestman, four that describe New York
State law, and yet another from a test the Second
Circuit had previously applied in various fraud cases.
Pet.App.23a-24a, 27a-29a. But the Second Circuit
pointedly refused to articulate any “exclusive test of
fiduciary status” or any characterization of “the proof
necessary to sustain a conviction under the
misappropriation theory.” Pet.App.29a. Instead, the
court announced that there are many “appropriate
standard[s] from which the jury could find the
requisite fiduciary relationship.” Pet.App.24a-25a.
The Second Circuit also refused to directly address
whether the jury instruction misstated the law.
Instead, the court asserted that “any error in the
instruction was harmless” because “the trial evidence
overwhelmingly established that Kosinski had a
fiduciary or fiduciary-like duty to Regado,” referring
back to its smorgasbord of alternative theories that
the jury was never afforded any opportunity to

16
consider, much less find proven beyond a reasonable
doubt. Pet.App.30a.
REASONS FOR GRANTING CERTIORARI
This Court has repeatedly held that §10(b) and
Rule 10b–5 do not create any “general duty between
all participants in market transactions to forgo actions
based on material, nonpublic information,” nor entitle
all investors to equal information. United States v.
O’Hagan, 521 U.S. 642, 661 (1997) (quoting Chiarella,
445 U.S. at 233). “Section 10(b) is aptly described as
a catchall provision, but what it catches must be
fraud.” Chiarella, 445 U.S. at 234-35 (emphasis
added). Under this Court’s precedents, only trading
that violates a fiduciary or similar duty of “trust and
confidence” is “deceptive” behavior that contravenes
§10(b). The breach of that duty is what divides lawful
from unlawful trading.
The decision below transgresses these clear
principles, which market participants have relied
upon for four decades, in three significant ways that
cry out for this Court’s intervention.
I. Permitting a simple confidentiality obligation
to substitute for the requisite duty of “trust and
confidence” would vastly expand the scope of the
insider-trading offense and ensnare conduct that is
not fraudulent. This Court has repeatedly held that
“trust” and “loyalty” are essential to creating the
fiduciary or similar duty necessary to expose a person
to criminal fraud liability for trading based on
confidential information. The Second Circuit’s ruling
contravenes this Court’s decisions by excising the
concept of “trust” from the duty of “trust and

17
confidence,” and is at odds with the Fifth Circuit on
this important issue.
II. The Second Circuit’s amorphous conception of
the duty element fails to articulate any
constitutionally “ascertainable standard of guilt.”
United States v. L. Cohen Grocery Co., 255 U.S. 81, 89
(1921). Due process and separation-of-powers require
clear definitions for each element of an offense, and
securities law particularly “demands certainty and
predictability.” Pinter v. Dahl, 486 U.S. 622, 654 n.29
(1988). Clear lines are needed in this area to avoid
“unpredictable results” and “over-deterring activities
related to lawful securities sales.” Id. But the Second
Circuit consciously refused to specify any “exclusive
test” or “proof necessary” to establish fiduciary status.
Its unwieldy assortment of theories, tests, and factors
to be applied ad hoc, post hoc, and case-by-case makes
it impossible for ordinary citizens to determine, ex
ante, whether they can legally trade. This creates
uncertainty and undermines the efficient operation of
the nation’s securities markets, particularly in light of
the Second Circuit’s national influence on the law in
this area.
III. The Second Circuit’s method of harmless-error
review transgresses the Sixth Amendment and this
Court’s precedents. A reviewing court cannot ignore
an instructional error on which the jury’s verdict
necessarily rests by interposing its own notions of how
the case should have been prosecuted or the evidence
presented. This Court has repeatedly held that
appellate courts may not affirm a conviction on any
theory that the jury did not get to consider for itself.
See, e.g., McCormick v. United States, 500 U.S. 257,
269-70 (1991). It should grant certiorari to enforce

18
that cardinal principle, which is constitutionallybased and of critical importance in numerous criminal
appeals.
I.

The Second Circuit’s Ruling That A
Confidentiality
Agreement
By
Itself
Establishes A Duty Of “Trust And
Confidence” Warrants This Court’s Review

1. Section 10(b) does not expressly address
“insider trading.” It prohibits “deceptive” conduct “in
connection with the purchase or sale of any security.”
15 U.S.C. §78j(b); see 17 C.F.R. §240.10b–5 (making it
unlawful, inter alia, to employ a “scheme…to
defraud...in connection with the purchase or sale of
any security”). Accordingly, this Court has repeatedly
held that §10(b) and Rule 10b–5 only prohibit
fraudulent trading. The statute creates “no ‘general
duty’” to refrain from trading “‘based on material,
nonpublic information.’” O’Hagan, 521 U.S. at 661
(quoting Chiarella, 445 U.S. at 233).
In Chiarella, the Court explained that “not every
instance of financial unfairness constitutes fraudulent
activity under §10(b).” 445 U.S. at 232 (emphasis
added).
Fraud requires a misrepresentation or
omission, but insider trading typically involves no
misrepresentations, and silence cannot be fraudulent
absent “a duty to speak.” Id. at 235. In the context of
securities trading that duty—the duty to disclose the
information at issue, or else abstain from trading
altogether—is “extraordinary.” Dirks, 463 U.S. at 657.
It arises only “from a specific relationship between two
parties,” not “the mere possession of nonpublic market
information.” Chiarella, 445 U.S. at 233, 235; see also
Dirks, 463 U.S. at 654-59.

19
Moreover, for four decades this Court has insisted
that this duty to disclose or refrain from trading only
arises from a fiduciary or similar relationship of “trust
and confidence.” Chiarella, 445 U.S. at 230; see also
id. at 232 (no duty without “trust and confidence”). In
Chiarella, the Court held that corporate insiders
violate §10(b) by trading on inside information
without first publicly disclosing the information,
because doing so breaches their “fiduciary or other
similar relation of trust and confidence” to the
corporation’s shareholders (the “classical theory”). Id.
at 228 (quotation marks omitted); see also Dirks, 463
U.S. at 654 (the duty arises from “trust and
confidence” and “the existence of a fiduciary
relationship”). O’Hagan extended this principle to
corporate outsiders under the “misappropriation
theory.” That doctrine holds that an individual is
prohibited from trading on material nonpublic
information if it was entrusted to him by someone to
whom he owes a fiduciary or similar “duty of loyalty
and confidentiality.” 521 U.S. at 652. The Court
reaffirmed the “trust and confidence” requirement just
five years ago in Salman v. United States, 137 S. Ct.
420 (2016). There, the Court reiterated that §10(b)
and Rule 10b–5 “prohibit undisclosed trading on
inside corporate information by individuals who are
under a duty of trust and confidence that prohibits
them from secretly using such information for their
personal advantage.” Id. at 423 (emphasis added).
Yet the Second Circuit held that a mere agreement
to keep information confidential—even if the parties
are at arm’s length and have no relationship of
“trust”—is sufficient to trigger a duty to refrain from
trading on that information.
That decision is
irreconcilable with this Court’s decisions. It squarely

20
conflicts with this Court’s repeated insistence that the
duty element requires proof of “trust and confidence”
and effectively excises the words “trust” and “and”
from the United States Reports.
2. The “trust” component of “trust and
confidence” is integral to the misappropriation theory
of insider-trading fraud on which this prosecution was
premised. It is the duty of loyalty—and not that of
confidentiality—which obliges a fiduciary to refrain
from using his principal’s information to trade for his
own benefit. As this Court explained in O’Hagan, the
very premise of the misappropriation doctrine is that
“[a] fiduciary who ‘pretends loyalty to the principal
while secretly converting the principal’s information
for personal gain’ ‘dupes’ or defrauds the principal.”
521 U.S. at 653-54 (quoting U.S. Br. at 17; emphasis
added). The fiduciary’s duty of loyalty binds him to
use information the principal has entrusted to him to
benefit only the principal, not himself.
The
“deception” manifests in the fiduciary having
“feign[ed] fidelity to the source of information”;
accordingly, “there is no ‘deceptive device’ and thus no
§10(b) violation” “if the fiduciary discloses to the
source that he plans to trade.” Id. at 655 (emphasis
added). It follows that an individual who owes only a
duty of confidentiality and faithfully keeps the
information to himself—whether or not he uses it to
trade—neither breaks any promise to the source nor
has anything to disclose. Absent a duty of trust,
undisclosed trading is not “deceptive” or “fraudulent”
and thus cannot violate §10(b) and Rule 10b–5.
That is why the controlling cases use conjunctive,
not disjunctive, language to describe the duty: It is
one of “trust and confidence,” not “trust or confidence.”

21
Allowing “confidence” alone to establish a duty—as
the Second Circuit did—would significantly broaden
the reach of §10(b) to arm’s-length relationships that
neither Congress nor this Court has ever suggested
create any duty to refrain from trading. Moreover,
such an expansive reading raises a grave threat to
individual liberty because “neither the legislative
history nor the statute itself affords specific guidance”
about when insider trading, which involves no
misstatement, constitutes fraud. Chiarella, 445 U.S.
at 226, 233; accord Dirks, 463 U.S. at 657-58 & n.16.
See also Dowling v. United States, 473 U.S. 207, 227
(1985) (courts may not authorize a statute’s “use in
wide expanses of the law which Congress has
evidenced no intention to enter by way of criminal
sanction”). Accordingly, this Court has relied on
principles of common-law fraud, in which a duty to
disclose or refrain from trading only arises from one
discrete type of relationship—namely, a relationship
of “trust and confidence.” Chiarella, 445 U.S. at 22728. Yet the Second Circuit has expanded the category
of relationships that qualify. Left undisturbed, its
decision eviscerates the critical limitation this Court
placed on when relationships create the duty
necessary to trigger §10(b) liability for insider-trading
fraud.
3. Under the Second Circuit’s decision, parties in
arm’s-length relationships that do not involve
fiduciary-like “trust and confidence” will now be
subject to criminal §10(b) liability for the first time.
“Trust” connotes a solemn duty, requiring obeyance of
“the punctilio of an honor the most sensitive.”
Meinhard v. Salmon, 249 N.Y. 458, 464 (1928)
(Cardozo, Ch. J.).
This Court endorsed the
misappropriation fraud theory in O’Hagan because

22
the defendant there, a partner at a law firm,
indisputably owed a duty to his firm and its clients not
to profit from confidential client information. 521 U.S.
at 653. A similar duty clearly attaches to the
relationship between a reporter and the newspaper
that employs him with respect to the paper’s
confidential, potentially market-moving news before it
is published. See Carpenter v. United States, 484 U.S.
19, 22-23 (1987); see also Skilling v. United States, 561
U.S. 358, 407 n.41 (2010) (identifying “public officialpublic,” “employee-employer,” and “union officialunion members” as clear fiduciary relationships).
Treating any arrangement that includes an
understanding of confidentiality as a fiduciary-like
relationship of trust and confidence would have
troubling consequences. Under the Second Circuit’s
holding, for example, a pedestrian who receives a
stock tip from a benevolent passerby with the
condition to keep it “under wraps” risks a criminal
conviction and years in prison if he decides to trade—
despite the passerby’s clear intent and the total
absence of any relationship between them.
Or
imagine a fledgling business is approached by a large
corporation about a potential acquisition and required
to enter a non-disclosure agreement. Has the smaller
company unwittingly assumed uncontracted-for
fiduciary-like responsibilities to its competitor even
after the negotiations break down? Would a countryclub caddy have to maintain a list of “no trade” stocks
representing the corporations of every member who
“just between us guys” let loose about work over a
round of golf?
These hypotheticals demonstrate that excising the
notion of “trust” from the duty of “trust and

23
confidence” vastly expands the category of
relationships that traditionally created the duty to
speak necessary to establish insider-trading fraud.
The Second Circuit’s decision thus verges on creating
precisely the “parity-of-information” rule this Court
has repeatedly rejected. See Dirks, 463 U.S. at 65657; Chiarella, 445 U.S. at 233. Indeed, the court below
transparently acknowledged that it sought to create
such a rule. For instance, it opined that Kosinski was
guilty because he “trad[ed] on nonpublic inside
information that was not available to those upon
whom he unloaded his shares.” Pet.App.11a; see also,
e.g., Pet.App.22a-23a n.7. But that is precisely the
theory this Court rejected in Chiarella, when it held:
“No duty could arise from petitioner’s relationship
with” his trading counterparties, because “petitioner
had no prior dealings with them. He was not their
agent, he was not a fiduciary, he was not a person in
whom [these trading counterparties] had placed their
trust and confidence. He was, in fact, a complete
stranger who dealt with [them] only through
impersonal market transactions.” 445 U.S. at 232233. The same is true of Kosinski. Indeed, the
government’s theory was that he owed a duty under
the misappropriation doctrine “to the source of
information”—Regado—not counterparties to his
securities transactions. O’Hagan, 521 U.S. at 655.
4. The CSRA specified that it “embodie[d] the
entire understanding” between Kosinski and Regado
and “superseded” “any prior or contemporaneous
negotiations, either oral or written.” Pet.App.21a n.6.
Had Regado intended to prohibit Kosinski from
trading its securities during the trial period, it very
easily could have said so in the agreement, just as it
did in the superseded CDA. But sophisticated parties

24
have the right to determine for themselves what terms
to include, or not, in a business agreement. Where, as
here, two parties stand at arm’s length, and the only
possible source of a duty is the contract between them,
it defies logic to say that the contract created a duty to
refrain from trading if trading would not breach the
contract. Without such a restriction—or any provision
suggesting a duty of trust and loyalty—Kosinski’s only
obligation under the CSRA was confidentiality, a duty
with which he fully complied.
The Second Circuit insinuated into the CSRA’s
confidentiality clause a far more expansive duty than
the one the parties had specified. Its decision
reinforces and expands upon the Second Circuit’s prior
pronouncements that “explicit acceptance of a duty of
confidentiality” is sufficient by itself to establish the
requisite duty of trust and confidence. Falcone, 257
F.3d at 234; see also United States v. Afriyie, 929 F.3d
63, 68 (2d Cir. 2019) (“An express agreement of
confidentiality may establish fiduciary status.”);
Chestman, 947 F.2d at 571.
What is more, the Second Circuit’s decision to
elevate confidentiality simpliciter to fiduciary or
similar status is at odds with how the Fifth Circuit
approaches the trust-and-confidence element in §10(b)
cases. The issue arose in the Fifth Circuit in the wellpublicized case against Mark Cuban. There, the SEC
alleged that the CEO of a company in which Cuban
invested obtained his commitment to keep certain
information confidential and then disclosed a new
development that would dilute the value of Cuban’s
holdings. Cuban sold all of his shares, and the SEC
brought an enforcement action alleging violations of
§10(b) and Rule 10b–5. The district court granted

25
Cuban’s motion to dismiss. Relying on O’Hagan and
Chiarella, it held that to create the requisite duty, an
agreement “must consist of more than an express or
implied promise merely to keep information
confidential. It must also impose on the party who
receives the information the legal duty to refrain from
trading on or otherwise using the information for
personal gain.” SEC v. Cuban, 634 F. Supp. 2d 713,
725 (N.D. Tex. 2009). On appeal, the Fifth Circuit
adopted the district court’s legal analysis, but it
reversed because it read the complaint to allege that
additional duty. The Fifth Circuit concluded that the
SEC had adequately alleged that the agreement
between Cuban and the CEO “was more than a simple
confidentiality agreement,” but instead included the
essential understanding that Cuban “was not to
trade.” 620 F.3d 551, 557 (5th Cir. 2010). See also
Jacked Up, L.L.C. v. Sara Lee Corp., 854 F.3d 797, 809
(5th Cir. 2017) (non-disclosure agreements and “other
agreements requiring confidentiality” “generally do
not create fiduciary relationships”).
The CSRA was just “a simple confidentiality
agreement.” Kosinski was independent and had no
fiduciary or similar duty to Regado. He could not have
been prosecuted in the Fifth Circuit for his Regado
trades. In light of the importance of the duty element
in insider-trading fraud, the Second Circuit’s defiance
of this Court’s precedents narrowing that element to
traditional relationships of “trust and confidence,” and
the conflict between its decision and that of the Fifth
Circuit, this Court’s intervention is critical.

26
II.

The
Second
Circuit’s
Standardless
Approach To The Duty Element Is
Unconstitutionally Vague And Injects
Uncertainty Into The Securities Markets

1. The Fifth Amendment’s Due Process Clause
prevents the government from “tak[ing] away
someone’s life, liberty, or property under a criminal
law so vague that it fails to give ordinary people fair
notice of the conduct it punishes, or so standardless
that it invites arbitrary enforcement.” Johnson v.
United States, 576 U.S. 591, 595 (2015) (citing
Kolender v. Lawson, 461 U.S. 352, 357-58 (1983)).
“The dividing line between unlawful…and lawful
action cannot be left to conjecture.” M. Kraus & Bros.
v. United States, 327 U.S. 614, 621 (1946). This voidfor-vagueness doctrine also enforces the constitutional
separation of powers by ensuring that criminal laws
do not “hand off the legislator’s responsibility for
defining criminal behavior to unelected prosecutors
and judges.” United States v. Davis, 139 S. Ct. 2319,
2323 (2019). It “require[s] that Congress, rather than
the executive or judicial branch, define what conduct
is sanctionable and what is not” in terms that are
clear, certain, and objective. Sessions v. Dimaya, 138
S. Ct. 1204, 1212 (2018) (plurality opinion).
As discussed, the crime of insider trading poses
particular challenges because §10(b) itself says
nothing about insider trading, and for decades the
offense has developed entirely in the courts. See John
C. Coffee, Jr., The ‘Tip’ of the Bunny’s Nose: Sniffing
Out Crime Where None Exists, LEGAL TIMES, Sept. 25,
1989, at 34, 35 (“law of insider trading is developing
through after-the-fact judicial decision-making,”
which “inevitably leads to the criminal law’s

27
overexpansion” and violates separation of powers).
While that ship might already have sailed, courts
must nevertheless employ “restraint…[and] narrow
interpretation,” Dowling, 473 U.S. at 213 (quotation
marks omitted), and any ambiguity concerning the
scope of the offense must be “resolved in favor of
lenity,” Cleveland v. United States, 531 U.S. 12, 25
(2000) (quotation marks omitted); see also, e.g., Yates
v. United States, 574 U.S. 528, 547-48 (2015).
Consistent with those principles, this Court has
rejected government efforts to expand the nature of
the duty that defines the scope of insider-trading
fraud. See Salman, 137 S. Ct. at 426-27 (“adher[ing]
to Dirks” and its personal-benefit requirement,
instead of the “noncorporate purpose” test proposed by
the government); Chiarella, 445 U.S. at 233 (refusing
to recognize a broader duty than “trust and
confidence”). And the Court has deemed it “essential”
that caselaw articulate clear and objective “guiding
principle[s]” for market participants “whose daily
activities must be limited and instructed” by the
insider-trading rules. Dirks, 463 U.S. at 664.
2. The Second Circuit did the opposite.
It
proclaimed that there is no “exclusive test of fiduciary
status” nor any particular “proof necessary to sustain
a conviction.”
Pet.App.29a.
The court instead
endorsed a mélange of competing and often
counterintuitive theories, tests, and factors and
provided zero guidance as to how each should be
weighed against the other. The decision thus hands
prosecutors the flexibility post hoc to bend the law to
the facts and makes it impossible for anyone seeking
to invest in the securities markets to confidently

28
identify, ex ante, the line demarcating lawful from
unlawful trading.
Certain factors that the Second Circuit emphasized
also make no sense.
O’Hagan approved the
misappropriation doctrine for situations in which a
defendant has sworn “fidelity to the source of the
information” and stands bound by a “duty of loyalty.”
521 U.S. at 655. The Second Circuit turned that
reasoning on its head by holding that Kosinski had the
requisite relationship because he was duty-bound to
be “independent” of Regado and could not “align[]” his
interests with the company’s. Pet.App.18a-20a, 24a.
But alignment of interests is the essence of what it
means to be a fiduciary, since “it is elemental that a
fiduciary owes a duty of undivided and undiluted
loyalty to those whose interests the fiduciary is to
protect.” Birnbaum v. Birnbaum, 73 N.Y.2d 461, 466
(1989).
Many of the other factors the Second Circuit
discussed—and the way it applied them—could apply
just as easily to numerous non-fiduciary relationships.
For example, a CEO travelling crosstown to finalize a
major deal with another company might select a car
service based on its “reputation” and “experience and
skill,” exactly the reasons the court of appeals believed
Regado selected Kosinski.
Pet.App.17a-18a.
Certainly, the CEO “entrust[s]” the driving to the
driver and expects him to be discreet while she takes
a conference call from the back seat. Id. After reading
the Second Circuit’s decision, the driver very well
might wonder if that 10-minute car ride had
transformed him into the CEO’s fiduciary, with all the
attendant duties and responsibilities that come with
such a role. And, had the driver deduced that there

29
was a deal in the works and bought a few shares in the
CEO’s company, he would have every reason to fear
criminal liability for having “defrauded” the CEO in
breach of his newfound exalted status.
The Second Circuit’s decision fails to articulate any
clear lines defining this critical element of the offense,
which can convert otherwise lawful securities trading
into a federal crime.
The Second Circuit’s
standardless “test” makes it impossible for a
defendant to know the dispositive facts that
“separat[e] legal innocence from wrongful conduct.”
United States v. X-Citement Video, Inc., 513 U.S. 64,
73 (1994); see Staples v. United States, 511 U.S. 600,
605 (1994) (scienter generally “require[s] that the
defendant know the facts that make his conduct
illegal”).
Indeed, the decision exemplifies the
vagueness problems that inhere when criminal
liability turns on the presence or absence of fiduciary
status, let alone when any “fiduciary-like” relationship
will do.
This Court dealt with a similar issue eleven years
ago in Skilling by insisting that “duty” should bear its
traditional, narrow meaning when it comes to the
federal “honest services fraud” statute. That statute,
like the securities fraud provisions at issue here,
requires the government to prove a breach of a
fiduciary or similar duty of trust and confidence.
Justice Scalia argued that the statute was
unconstitutionally vague, in part because “[t]he
indefiniteness” of the fiduciary duty element taints
the offense with a “fundamental indeterminacy.”
Skilling, 561 U.S. at 419, 421 (concurring in
judgment). He observed that lower courts were all
over the map when it comes to fiduciary duties,

30
discerning such relationships in a plethora of
circumstances that lack any clear unifying thread; the
courts, he noted, were even divided over “the source of
the fiduciary obligation—whether it must be positive
state or federal law.” Id. at 417. Tying criminal
liability to fiduciary duty, he opined, “provides no
‘ascertainable standard of guilt.’” Id. at 416 (quoting
L. Cohen Grocery Co., 255 U.S. at 89).
The Skilling majority adopted a narrow
construction of the statute to avoid a due process
problem. It responded to Justice Scalia’s concerns by
pointing out that it had cabined the offense to
situations in which “[t]he existence of a fiduciary
relationship, under any definition of that term, [is]
usually beyond dispute.” Id. at 407 n.41. The Court
then provided, as examples, the quintessentially
fiduciary relationships that exist between public
officials and their constituents, employees and their
employers, and union officials and their membership.
Id.
If insider-trading fraud is likewise confined to
cases in which the existence of a fiduciary or fiduciarylike duty is “beyond dispute,” there would be no
vagueness problem. But the Second Circuit expanded
the duty (and the crime) to reach an indeterminate
and boundless range of relationships. Its decision lays
the groundwork for different cases to be judged
according to different tests and cannot even identify a
single body of law that should govern.
Given the patchwork of competing and occasionally
contradictory theories, tests, and factors in the Second
Circuit’s decision, it now becomes impossible for
anyone—or anyone’s counsel—to reliably determine
whether a given relationship does, or does not, expose

31
her to prison under §10(b). The Second Circuit’s
standardless approach creates confusion in an
exceptionally important area that demands clarity
and predictability.
This Court’s intervention is
urgently needed, particularly because of the Second
Circuit’s nationwide influence on securities law.
III. The Harmless-Error Ruling Defies This
Court’s Constitutionally-Based Teachings
On
Appellate
Review
Of
Criminal
Convictions
A trial court’s failure to properly instruct a jury on
an element of the offense is a constitutional error that
deprives the defendant of his Sixth Amendment right
to have the jury find each element beyond a reasonable
doubt. See Neder v. United States, 527 U.S. 1, 12
(1999). In assessing whether such an error can be
overlooked as “harmless,” a reviewing court must
inquire “not whether, in a trial that occurred without
the error, a guilty verdict would surely have been
rendered, but whether the guilty verdict actually
rendered in this trial was surely unattributable to the
error.” Sullivan v. Louisiana, 508 U.S. 275, 279
(1993). “That must be so,” this Court explained,
“because to hypothesize a guilty verdict that was
never in fact rendered—no matter how inescapable
the findings to support that verdict might be—would
violate the jury-trial guarantee.” Id.
In declaring any instructional error on the duty
element harmless, the Second Circuit at once
abdicated its responsibility and dramatically
overstepped its proper role. The court found harmless
error without conducting any harmless-error review at
all. Instead, it simply repurposed its sufficiency
findings under its own various alternative theories of

32
fiduciary duty.
But the two analyses are
fundamentally distinct.
Sufficiency review asks
whether the government adduced enough evidence
from which a reasonable jury could find a defendant
guilty beyond a reasonable doubt. See Musacchio v.
United States, 136 S. Ct. 709, 715 (2016). Harmlesserror review, by contrast, requires the government to
prove “‘beyond a reasonable doubt that the error
complained of did not contribute to the verdict
obtained.’” Neder, 527 U.S. at 15 (quoting Chapman
v. California, 386 U.S. 18, 24 (1967)). The Second
Circuit’s decision inexcusably conflates the two.
Had it conducted a proper inquiry, the court could
not have concluded the instructional error was
harmless. The jury was instructed on one theory and
one theory only: that Kosinski owed Regado a duty of
trust and confidence if, and only if, he had “agree[d] to
maintain information in confidence.” Pet.App.78a79a. As charged, the jury was presented with no path
to convict except by following the confidentiality
instruction, and so the instruction necessarily
“contribute[d] to the verdict obtained.” See Neder, 527
U.S. at 15. If the instruction recited an incorrect
statement of law, therefore, it was clearly “possible”
that the jury “convicted [Kosinski] for conduct that is
not unlawful,” and the error was by definition not
harmless. McDonnell v. United States, 136 S. Ct.
2355, 2375 (2016); see Stromberg v. People of State of
Cal., 283 U.S. 359, 369-70 (1931) (conviction that may
have rested “exclusively” upon an invalid theory “must
be set aside”); see also Chiarella, 445 US at 237 n.21
(“We may not uphold a criminal conviction if it is
impossible to ascertain whether the defendant has
been punished for noncriminal conduct.”). Indeed, as
long as “the defendant contested the [erroneously

33
charged] element and raised evidence sufficient to
support a contrary finding”—as Kosinski did here—a
reviewing court “cannot conclude beyond a reasonable
doubt that the jury verdict would have been the same
absent the error…[and] should not find the error
harmless.” Neder, 527 U.S. at 19.5
But the Second Circuit sidestepped the proper
harmless-error analysis entirely.
Rather than
evaluating the jury’s actual verdict, the court
empaneled itself in a hypothetical jury box and
sustained the convictions using its own factual
findings relating to theories of fiduciary duty that
Kosinski’s jury never had the opportunity to consider.
That ruling squarely conflicts with this Court’s
decisions. This Court has long held that an appellate
court “cannot affirm a criminal conviction on the basis
of a theory not presented to the jury.” Chiarella, 445
U.S. at 236; see McNally v. United States, 483 U.S.
350, 361 (1987) (court cannot affirm on a basis for
which “there was nothing in the jury charge that
required such a finding”). “[E]ven assuming the Court
of Appeals was correct on the law, the conviction
should not have been affirmed on that basis” because
it was “never submitted to the jury.” McCormick, 500
U.S. at 269-70. Other circuits have faithfully applied
this basic proposition, which serves to protect a
defendant’s Sixth Amendment rights. See, e.g., United
States v. Munguia, 704 F.3d 596, 604-05 (9th Cir.
2012); United States v. Serawop, 410 F.3d 656, 669-70
(10th Cir. 2005). See also United States v. Annamalai,
5 Among other things, the CSRA specified that Kosinski was an
independent contractor, disclaimed any agency relationship, and,
unlike the CDA that it expressly superseded, imposed no
restriction on Kosinski’s use of Regado’s confidential information.

34
939 F.3d 1216, 1231 (11th Cir. 2019) (sufficiency
review); United States v. Dann, 652 F.3d 1160, 1174
(9th Cir. 2011) (same); United States v. Mendez, 528
F.3d 811, 816 n.1 (11th Cir. 2008) (same); United
States v. Winfield, 997 F.2d 1076, 1081 (4th Cir. 1993)
(same).
Chiarella, in fact, involved the same issue posed
here—whether an insider-trading conviction can be
affirmed under a new theory of duty that emerged only
after the trial. The defendant in that case purchased
stock of the target of an imminent acquisition. The
jury was instructed that the defendant owed a duty to
the counterparties of his trades; the Court held that
this misstated the law and required reversing his
conviction.
The government argued that the
conviction should be sustained regardless of the
erroneous instruction, because the defendant owed a
duty to the acquiring company, the source of his
information. This Court refused to consider the
argument, saying: “The jury was not instructed on the
nature or elements of a duty owed by petitioner to
anyone other than the sellers,...[and] we will not
speculate upon whether such a duty exists, whether it
has been breached, or whether such a breach
constitutes a violation of §10(b).” 445 U.S. at 236-37.
“Courts are essentially passive instruments of
government. They do not, or should not, sally forth
each day looking for wrongs to right.” United States v.
Sineneng-Smith, 140 S. Ct. 1575, 1579 (2020)
(quotation marks and citation omitted). Accordingly,
“appellate courts are not free to revise the basis on
which a defendant is convicted simply because the
same result would likely obtain on retrial.” Dunn v.
United States, 442 U.S. 100, 107 (1979). When “[a]

35
reviewing court…engage[s] in pure speculation—its
view of what a reasonable jury would have done…the
wrong entity judges the defendant guilty.” Sullivan,
508 U.S. at 281 (quotation marks omitted).
Just as the Court could not affirm the conviction in
Chiarella based on a theory not presented to the jury,
here the Second Circuit should not have relied on
alternative theories of fiduciary duty never considered
by Kosinski’s jury to deem any instructional error was
harmless. By doing so the court substituted its
judgment for the jury’s and defied this Court’s
precedents. It is imperative that courts of appeals
confronted with unconstitutional jury instructions
uniformly conduct harmless-error review in a manner
that respects the defendant’s Sixth Amendment right
to jury trial. This Court should grant review to ensure
that the Second Circuit conforms its harmlessness
review to the law. That is especially important
because here, the result was to affirm a conviction
based on reasoning that deprives market participants
of fair notice as to when a relationship gives rise to the
duty of “trust and confidence” that triggers insidertrading liability.

36
CONCLUSION
For the foregoing reasons, this Court should grant
the petition.
Respectfully submitted,
ALEXANDRA A.E. SHAPIRO
Counsel of Record
DANIEL J. O’NEILL
SHAPIRO ARATO BACH LLP
500 Fifth Avenue, 40th Floor
New York, New York 10110
(212) 257-4880
ashapiro@shapiroarato.com
Counsel for Petitioner
February 19, 2021

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
————
AUGUST TERM 2019
No. 18-3065
————
UNITED STATES OF AMERICA,
v.

Appellee,

EDWARD J. KOSINSKI,
Appellant.
————
On Appeal from the United States District Court
for the District of Connecticut
Vanessa L. Bryant, Judge.
————
ARGUED: OCTOBER 30, 2019
DECIDED: SEPTEMBER 22, 2020
————
Before: CABRANES and RAGGI, Circuit Judges,
and KORMAN, District Judge.*
————

*

Judge Edward R. Korman, United States District Judge for
the Eastern District of New York, sitting by designation.

2a
Dr. Edward Kosinski served as a principal investigator for a clinical trial of a cardiac drug designed to
prevent blood clotting. After he learned that patients
suffered adverse effects during the trial, Kosinski
traded on that nonpublic inside information to avoid a
loss and earn a profit in the shares of the pharmaceutical company for which he was principal investigator. He was convicted of two counts of insider trading
in violation of Section 10(b) of the Securities Exchange
Act of 1934, and Rule 10b–5 promulgated thereunder,
in the United States District Court for the District of
Connecticut (Bryant, J.) and was sentenced principally to six months’ incarceration. On appeal, Kosinski
argues primarily that he was under no duty to refrain
from trading based on nonpublic inside information,
and that there was insufficient evidence that he
committed a willful violation of the law. We conclude
that Kosinski did have a duty to refrain from trading
on nonpublic inside information and that the evidence
was sufficient to convict Kosinski. We further conclude
that the trial judge’s jury instructions and evidentiary
rulings contained no reversible error.
AFFIRMED.
————
ALEXANDRA A.E. SHAPIRO (Philip W.
Young, on the brief), Shapiro Arato
Bach LLP, New York, New York, for
Defendant-Appellant.
HEATHER L. CHERRY, Assistant United
States Attorney (Jonathan N. Francis
and Sandra S. Glover, on the brief) for
John H. Durham, United States Attorney
for the District of Connecticut, New
Haven, Connecticut, Appellee.

3a
KORMAN, District Judge:
Dr. Edward Kosinski was a principal investigator in
a clinical trial (the “Study”) for a heart-related drug
developed by Regado Biosciences, Inc. (“Regado”), a
publicly traded biopharmaceutical company whose
stock was traded on NASDAQ. Regado’s pharmaceutical product was designed to prevent blood clotting in
patients undergoing heart procedures. As a principal
investigator in the Study, Kosinski was responsible for
recruiting the subjects, determining their suitability,
monitoring their tolerance and reaction and reporting
the results. To that end, he persuaded twenty patients
who were part of his practice to participate in the
Study, for which Regado paid Kosinski a fee of
$80,000. Further, Kosinski was responsible for “making sure that the patients understand the risks and
the reason why they’re being enrolled, and getting
informed consent and then making sure that they’re
getting the best level of care and following . . . good
clinical practice.” Gov’t App’x at 547.
During the course of the Study, Kosinski, who was
also a sophisticated stock trader with a portfolio
exceeding $11 million, secretly accumulated approximately $250,000 of Regado stock in breach of his
agreement to disclose if his holdings exceeded $50,000.
Then, after being advised by Regado of information
likely to affect the trial adversely, Kosinski traded
based on that nonpublic inside information.
First, Kosinski sold Regado stock when he was
informed the Study would be suspended due to safety
concerns, avoiding a loss of $160,000 at the expense of
purchasers who did not have access to the same
nonpublic inside information. Then, when informed
that a patient had died and that the Study would be
suspended indefinitely, Kosinski bet against Regado’s

4a
stock by purchasing put options from which he realized a net profit of $3,300 when Regado publicly
announced that it had permanently terminated the
clinical trial. Kosinski later admitted to the FBI that
these trades were based on “greed and stupidity” and
that “he didn’t feel good about making those trades
when he had made them.” His indictment, trial, and
conviction for violating Section 10(b) of the Securities
Exchange Act of 1934 resulted, and he was sentenced
principally to six months’ imprisonment and a
$500,000 fine. Kosinski is free on bail pending this
appeal.
On appeal, Kosinski challenges the sufficiency of the
evidence presented at trial, as well as certain of the
district court’s jury instructions and evidentiary rulings. Because Kosinski raises a sufficiency challenge,
we “view the evidence in the light most favorable to
the government, crediting every inference that could
have been drawn in the government’s favor, and
deferring to the jury’s assessment of witness credibility and its assessment of the weight of the evidence.”
United States v. Martoma, 894 F.3d 64, 72 (2d Cir.
2017); see also Jackson v. Virginia, 443 U.S. 307, 319
(1979) (“upon judicial review all of the evidence is to
be considered in the light most favorable to the
prosecution”). Moreover, to the extent he challenges
the district court’s legal conclusions, our review is de
novo. United States v. Castello, 611 F.3d 116, 119 (2d
Cir. 2010).
BACKGROUND
In 2005, Regado commenced a clinical trial of its
cardiac drug, known as REG1 Anticoagulation System
(“REG1”), to test whether it could safely and effectively reduce the incidence of heart attacks, strokes,
and deaths in patients undergoing angioplasty proce-

5a
dures to unblock clogged arteries. Clinical drug trials
involve multiple phases. Before human trials begin,
researchers ordinarily test the drug in animals. Then,
phase one analyzes whether the drug is safe in
humans. Phase two studies a larger patient population, examining both safety and efficacy. If these two
phases succeed, the drug company, which is the “sponsor,” conducts phase three, a comprehensive study of
thousands of patients at hundreds of study sites. If
phase three is successful, the sponsor can seek final
Food and Drug Administration (“FDA”) approval to
market the drug. Kosinski only participated in the
third phase of the REG1 trial at a single site, although
the Study involved a large, heterogenous population of
patients at multiple sites.
For phase three, Regado hired the Cleveland Clinic
Foundation, which supports research into cardiovascular drugs, to help write the Study protocol and
administer the Study by choosing sites and principal
investigators as well as by handling communication,
site contract negotiation and execution, and payment
for services.
On June 12, 2013, the Cleveland Clinic Foundation,
on behalf of Regado, and the Connecticut Clinical
Research, LLC (the “LLC”), of which Kosinski was
president and through which he conducted multiple
clinical trials for various drugs, entered into a
Confidential Disclosure Agreement (the “CDA”) to
determine whether Kosinski would serve as a principal investigator for the Study. Kosinski signed
the CDA on behalf of the LLC. The CDA allowed
employees of the LLC to receive confidential information from Regado—such as the Study’s protocol—
which provided information subject to a restriction on
disclosure and use.

6a
On January 22, 2014, the Cleveland Clinic Foundation, on behalf of Regado, and the LLC, with Kosinski
signing as president, entered into a superseding contract called a Clinical Study and Research Agreement
(“CSRA”), pursuant to which Kosinski became a principal investigator for one of the many sites of phase
three of the Study. Kosinski again signed the CSRA as
the LLC’s president. He also acknowledged and agreed
to the CSRA in his personal capacity as the principal
investigator.
The CSRA included two key interrelated provisions
that are particularly relevant to this appeal: Kosinski
was required (1) to maintain in “strict confidence” all
the information with which he was provided to enable
him to perform as principal investigator; and (2) to
complete a financial disclosure form called a Form
FDA 1572, which in turn required that he “promptly”
disclose to Regado if the value of his Regado stock
exceeded $50,000. The form stated that such disclosure would be “of concern to [the] FDA.”
This disclosure form was intended to safeguard
against potential conflict of interest by those involved
in clinical trials. Federal regulations state that a
“potential source of bias . . . is a financial interest of
the clinical investigator in the outcome of the study,”
which includes “an equity interest in the sponsor of the
covered study.” 21 C.F.R. § 54.1(b). The required
stockholding disclosure would thus allow sponsors
such as Regado to identify if principal investigators
had a conflict, which could not only endanger patient
safety but also possibly delay or interfere with the
FDA’s approval process.
Sponsors, such as Regado, are motivated to obtain
FDA approval for their product, along with the
attendant financial rewards. That financial interest is

7a
the motivation for the sponsor vesting responsibility
for a clinical trial in principal investigators, with
whom the sponsor does not have direct contact but
with whom the sponsor works through intermediaries
like the Cleveland Clinic Foundation. Likewise, it is
the reason for requiring the sponsor to disclose to the
FDA any financial entanglements between itself and
the principal investigator, along with any steps it had
taken to minimize the risk of bias. See 21 C.F.R.
§ 54.4(a). As a Cleveland Clinic Foundation executive
testified at trial, these conflict-avoiding practices and
the related FDA regulations principally address the
concern that “[i]f there’s a safety issue, [conflicted
study participants] may not report it if [they] think it’s
going to negatively impact the trial. That would be a
very big concern actually for patient safety. Or, you
know, anything else that [persons] may– [persons]
may sway the trial to go the way [they] want it to go if
[they] have a financial interest.” Gov’t App’x at 72–73;
see 45 C.F.R. § 46.101 et seq.
I. Kosinski’s Trading And Related Representations
Kosinski began purchasing Regado shares on
October 8, 2013, four months after entering into the
CDA in June 2013, acquiring 2,000 Regado shares that
day, and 2,000 more the next day. On October 16,
2013, he executed an application to St. Vincent’s
Medical Center in Bridgeport, Connecticut, for permission to administer Regado’s drug to patients there for
purpose of the Study. In that application, he falsely
represented that he did not own any Regado shares.
In February 2014, shortly after the LLC had entered
into the CSRA, Kosinski bought another 2,000 Regado
shares, and by the end of that month, he owned well
over $50,000 of Regado stock, triggering his obligation

8a
to “promptly” disclose that fact to Regado, which he
failed to do. In April and May of 2014, Kosinski bought
an additional 31,000 Regado shares, bringing the total
value of his holdings to around $250,000. During these
months, Kosinski failed to make the required disclosure to Regado. As far as Regado knew, the value of
Kosinski’s interest never exceeded $50,000.
On Sunday, June 29, 2014, while the Study was
underway, Kosinski received an email from the
Study’s management team.1 The email alerted all
principal investigators that the enrollment of new
patients was being put on hold until Wednesday, July
2, 2014 because there had been “several allergic reactions over the past few weeks, and the [data safety
monitoring board] and trial leadership need time to
review the recent events thoroughly.” On Monday,
June 30, 2014, the morning after he received the
email and before the information contained therein
was made public, Kosinski sold all of his Regado
shares. Thereafter, on Wednesday, July 2, 2014,
Regado issued a press release announcing that it was
suspending the Study due to “serious adverse events
related to allergic reactions,” and Regado’s stock price
fell approximately 58% the next day. If Kosinski had
not sold all of his shares beforehand, their value would
have been diminished by around $160,000.
On Tuesday, July 29, 2014, Kosinski received
another email from the trial management team to all
of the principal investigators. This email revealed that
1

The management team performs the high-level decisionmaking regarding trial structure and safety and includes representatives from Regado as the sponsor and from the Cleveland
Clinic Foundation as the trial administrator, as well as a data
safety monitoring board, which is responsible for advising the
sponsor on patient safety-related issues.

9a
a patient at another Study site had died from an
allergic reaction to the drug, and that the Study was
on hold pending an assessment by the Study’s data
safety management board. Two days later, before the
patient’s death was made public, Kosinski placed a bet
that Regado’s share price would fall: He bought 50 put
options that collectively would entitle him to sell up
to 5,000 Regado shares for $2.50 each by October 18,
2014. On August 25, 2014, Regado issued a press
release announcing that the trial was being permanently halted due to the frequency and severity of
allergic reactions. That same day, Regado’s share
value dropped from around $2.80 to around $1.10. On
August 28, 2014, Kosinski bought 5,000 Regado shares
for around $1.10 each and then used his put options to
sell the same number of shares for $2.50 each.
Kosinski’s net profits from these transactions was
around $3,300.2
On September 29, 2014, a month after the Study
was terminated, the Cleveland Clinic Foundation sent
Kosinski a letter that, among other things, offered a
“reminder” that “[i]f any investigator has any relevant
financial interest changes related to Regado Biosciences for 1 year following termination of the study,
please send updated Financial Disclosure Forms to
Regado.” In response to this letter, on October 1, 2014,
after the Study terminated and when he no longer held
any stock in Regado, Kosinski executed a Form FDA
1572, as he was required to do under the CSRA. That
was the first FDA Form 1572 that Kosinski had filed
since the initial one he filed in December 2013 when
2

Kosinski’s net profit was less than the difference between the
value of the 5,000 shares he purchased on August 28, 2014, and
the price for which he sold them because Kosinski paid a $0.70
premium for each share the put options entitled him to sell.

10a
he executed the CSRA on behalf of the LLC,
notwithstanding his obligation to “promptly” update
the form when the value of his Regado shares rose
above $50,000, which occurred in February 2014.
II. Kosinski’s Statements To The FBI
James McGoey, an FBI agent, interviewed Kosinski
in person for nearly an hour and a half in June 2016.
Agent McGoey also called Kosinski on the telephone in
August 2016. During that call, which lasted about five
minutes, McGoey told Kosinski that he had been
indicted for securities fraud. McGoey testified that
Kosinski told him that it was a “stupid thing that he
did and he didn’t feel good about making those trades
when he had made them,” and that Kosinski used the
words “greed and stupidity” to describe what caused
him to make those trades.3
ANALYSIS
Kosinski was tried and convicted of two counts of
violating § 10b of the Securities Exchange Act and
Rule 10b–5. One count was based on the sale of all his
shares shortly after receiving the June 2014 email
announcing the Study’s suspension, and the other
count was based on his purchase of 50 put options
shortly after learning the Study would be canceled.
Kosinski challenges these convictions, arguing principally that the evidence was legally insufficient to
prove that he breached a duty owed to Regado and that
the district court’s jury instruction was erroneous. He
maintains that he agreed only to keep the information
he received in the course of the Study in strict
3

As discussed infra at 52, Kosinski also told McGoey that he
“can’t believe this is happening” and that he had not retained
counsel. Gov’t App’x at 668.

11a
confidence, which he claims he did, and that secretly
trading on the basis of information was not a breach of
his agreement. Whatever merit Kosinski’s argument
might have had Regado brought a civil action for
breach of contract, it fails in the context of a criminal
prosecution for trading on nonpublic inside information that was not available to those upon whom he
unloaded his shares without making the requisite
disclosure.
Kosinski further challenges his conviction by arguing that the district court gave the jury an improper
instruction on willfulness and that, when assessed
under the proper standard, the evidence presented at
trial was legally insufficient to prove that he acted
willfully. Finally, Kosinski challenges several evidentiary rulings.
We address each argument in turn.
I. Kosinski Had A Duty To Regado Not To Trade
In Regado’s Stock Absent Disclosure
Section 10(b) of the Securities Exchange Act of 1934
prohibits the use of “any manipulative or deceptive
device or contrivance” in connection with the purchase
or sale of securities. 15 U.S.C. § 78j(b). Similarly, Rule
10b–5 makes it unlawful to “employ any device,
scheme, or artifice to defraud, [or] . . . to engage in any
act, practice, or course of business which operates or
would operate as a fraud or deceit upon any person, in
connection with the purchase or sale of any security.”
17 C.F.R. § 240.10b–5. “In an inside-trading case this
fraud derives from the inherent unfairness involved
where one takes advantage of information intended to
be available only for a corporate purpose and not for
the personal benefit of anyone.” Dirks v. SEC, 463 U.S.
646, 654 (1983) (internal quotation omitted). We con-

12a
clude that Kosinski owed a duty to Regado not to trade
in Regado’s stock based on confidential, nonpublic
information, absent disclosure to Regado.
A. Kosinski Owed A Duty to Regado As A
“Temporary Insider”
In United States v. O‘Hagan, Justice Ginsburg
succinctly set forth the two theories under which a
defendant may be found guilty of insider trading: the
classical and misappropriation theories.
Under the “traditional” or “classical theory” of
insider trading liability, § 10(b) and Rule
10b–5 are violated when a corporate insider
trades in the securities of his corporation on
the basis of material, nonpublic information.
Trading on such information qualifies as
a “deceptive device” under § 10(b), we have
affirmed, because “a relationship of trust and
confidence [exists] between the shareholders
of a corporation and those insiders who have
obtained confidential information by reason
of their position with that corporation.”
Chiarella v. United States, 445 U.S. 222, 228
(1980). That relationship, we recognized, “gives
rise to a duty to disclose [or to abstain from
trading] because of the ‘necessity of preventing a corporate insider from . . . tak[ing]
unfair advantage of . . . uninformed . . . stockholders.’” Id., at 228–229 (citation omitted).
The classical theory applies not only to
officers, directors, and other permanent
insiders of a corporation, but also to attorneys,
accountants, consultants, and others who
temporarily become fiduciaries of a corporation. See Dirks v. SEC, 463 U.S. 646, 655,
n. 14 (1983).

13a
The “misappropriation theory” holds that a
person commits fraud “in connection with” a
securities transaction, and thereby violates
§ 10(b) and Rule 10b–5, when he misappropriates confidential information for securities
trading purposes, in breach of a duty owed to
the source of the information. Under this
theory, a fiduciary’s undisclosed, self-serving
use of a principal’s information to purchase or
sell securities, in breach of a duty of loyalty
and confidentiality, defrauds the principal of
the exclusive use of that information. In lieu
of premising liability on a fiduciary relationship between company insider and purchaser
or seller of the company’s stock, the misappropriation theory premises liability on a
fiduciary-turned-trader’s deception of those
who entrusted him with access to confidential
information.
521 U.S. 642, 651–52 (1997).
Both theories advance the “animating purpose of the
Exchange Act: to insure honest securities markets and
thereby promote investor confidence.” Id. at 658. They
are based on the assumption that “investors likely
would hesitate to venture their capital in a market
where trading based on misappropriated nonpublic
information is unchecked by law.” Id. Both theories
seek to avoid the unfairness that “[a]n investor’s
informational disadvantage vis-à-vis the misappropriator with material, nonpublic information stems
from contrivance, not luck; it is a disadvantage that
cannot be overcome with research or skill.” Id. at 658–
59. These theories are consistent with the common
law principle that “a person who acquires special
knowledge or information by virtue of a confidential

14a
or fiduciary relationship with another is not free to
exploit that knowledge or information for his own
personal benefit[.]” Diamond v. Oreamuno, 24 N.Y.2d
494, 497 (1969).
This case was prosecuted under the misappropriation theory. Specifically, as we have held, “a person
violates Rule 10b–5 when he misappropriates material
nonpublic information in breach of a fiduciary duty or
similar relationship of trust and confidence and uses
that information in a securities transaction.” United
States v. Falcone, 257 F.3d 226, 230 (2d Cir. 2001)
(Sotomayor, J.) (internal citation omitted). We have
explained that
a fiduciary relationship, or its functional
equivalent, exists only where there is explicit
acceptance of a duty of confidentiality or
where such acceptance may be implied from a
similar relationship of trust and confidence
between the parties. Qualifying relationships
are marked by the fact that the party in whom
confidence is reposed has entered into a
relationship in which he or she acts to serve
the interests of the party entrusting him or
her with such information.
Id. at 234–35.
Significantly, a qualifying relationship does not require one to be a traditional corporate insider. The
Supreme Court has explained that,
[u]nder certain circumstances, such as where
corporate information is revealed legitimately
to an underwriter, accountant, lawyer, or consultant working for the corporation, these
outsiders may become fiduciaries of the
shareholders. The basis for recognizing this

15a
fiduciary duty is not simply that such persons
acquired nonpublic corporate information,
but rather that they have entered into a
special confidential relationship in the conduct of the business of the enterprise and
are given access to information solely for
corporate purposes.
Dirks, 463 U.S. at 655 n.14. We have described such
individuals as “temporary insiders.” United States v.
Chestman, 947 F.2d 551, 567 (2d Cir. 1991) (en banc).
While the language in Dirks was in the context of
the traditional classical theory of insider trading, it
likewise encompasses those who have entered into a
“special confidential relationship,” Dirks, 463 U.S. at
655 n.14, that has enabled them to misappropriate
information that was “intended to be available only for
a corporate purpose and not for the personal benefit
of anyone,” id. at 654 (internal quotation omitted).
This court has recognized that the classical and
misappropriation theories are “overlapping,” sometimes proscribing the same or similar conduct. United
States v. Newman, 773 F.3d 438, 445 (2d Cir. 2014),
abrogated on other grounds by Salman v. United
States, 137 S. Ct. 420 (2016). Thus, we have treated
the theories as intertwined branches of the same tree,
explaining that in both cases, it is the “breach of a
fiduciary duty or other duty of loyalty and confidentiality that is a necessary predicate to insider
trading liability.” Martoma, 894 F.3d at 73.4

4

In Martoma, we also observed that “[a]lthough many of
the cases refer to ‘insiders’ and ‘fiduciary’ duties because those
cases involve the ‘classical theory’ of insider trading, the Dirks
articulation of tipper and tippee liability also applies under the
misappropriation theory, where the misappropriator violates

16a
Temporary insiders are therefore forbidden from
trading under both the classical and misappropriation
theories without the requisite disclosure. Indeed, the
only meaningful difference between the two theories is
the victim of the fraud. Where, as here, a trader owes
a duty to both the shareholders with whom he trades
and the source of the confidential information on
which he trades, he must make disclosure to both. See
O’Hagan, 521 U.S. at 655 n.7 (where “a person trading
on the basis of material, nonpublic information owes a
duty of loyalty and confidentiality to two entities or
persons . . . but makes disclosure to only one, the
trader may still be liable”).
Turning to this case, we view Kosinski’s role as a
principal investigator to fit squarely within Dirks’s
recognition of “temporary insiders” who play fiduciarylike roles, such that he could have been successfully
prosecuted under the classical theory (because he
failed to disclose to his trading counterparty that he
was trading on inside information) and under the
misappropriation theory (because he failed to disclose
to Regado that he was trading on inside information
that he had been given in confidence). Chestman, 947
F.2d at 565 (citing Dirks, 463 U.S. at 655 n.14).
Kosinski was entrusted with Regado’s information
solely because of his duty to ensure the integrity and
accuracy of the phase three clinical trial, as well as the
health of his patients. Regado provided Kosinski the
information he traded upon because that information
was integrally related to the safety of the Study,
ultimately necessitating its termination. Indeed,
Kosinski would not have been provided this information absent his “explicit acceptance of a duty of
some duty owed to the source of the information.” Martoma, 894
F.3d at 73 n.5.

17a
confidentiality.” Falcone, 257 F.3d at 234. Moreover,
Kosinski further agreed to disclose if his holding of
Regado stock exceeded $50,000, which presumably
would have triggered Regado’s closer oversight of
Kosinski (or even his termination) given its significance to the FDA, and which he failed to do. Under
these circumstances, Kosinski qualified as a temporary insider of Regado.
Since it is uncontested that Kosinski traded on
Regado’s nonpublic inside information without disclosure to Regado, he therefore “misappropriate[d] confidential information for securities trading purposes, in
breach of a duty owed to the source of the information.”
O’Hagan, 521 U.S. at 652. That failure to disclose
satisfied the element of deceit required by § 10(b) and
Rule 10b–5. Id.
B. Kosinski Had A Fiduciary-Like Relationship
With Regado
Separate and apart from whether Kosinski qualified
as a “temporary insider” of Regado, we conclude that
Kosinski’s relationship with Regado was fiduciary in
nature because it was a relationship based upon trust
and confidence. Kosinski expressly agreed to keep
Regado’s information confidential. Moreover, Regado
entrusted Kosinski with the administration of a
newly-created drug to human beings. It was presumably Regado’s faith and confidence in Kosinski’s
reputation as a prominent New England cardiologist,
his experience as a principal investigator, and his
willingness to provide access to his patients, that
caused Regado to secure Kosinski’s services. By selecting Kosinski, Regado chose a distinguished physician,
knowing that the Study could become a matter of life
and death—as indeed it did at another site—because
“you’re asking patients to put their lives at stake when

18a
they participate.” Gov’t App’x at 310. Kosinski’s experience and skill were important to Regado avoiding
such an outcome and ultimately to Regado receiving
FDA approval for REG1 and the financial reward that
would accompany it. Regado accordingly entered into
a relationship with Kosinski that was “marked by” his
service of “the interests of the party entrusting him []
with such information.” Falcone, 257 F.3d at 234–35
(internal citation omitted). Thus, Kosinski regularly
received information from Regado regarding the drug
trial, including the confidential information that
he ultimately misappropriated and upon which he
traded.
Such trading vitiates the principal investigator’s
critical function, by fixing his attention on his own
monetary gain and depriving the company of the
independent assessment required for FDA approval.
Principal investigators are charged with caring for the
well-being of their patients, not the ultimate success
of the drug. But by appropriating the sponsor’s
nonpublic inside information to trade in its stock, a
principal investigator’s financial interest becomes
aligned with the outcome of the study—he has an
incentive to lie about or conceal patients’ results in
order to influence the study’s outcome, and ultimately
his wallet. When a sponsor such as Regado files an
application for the approval of a particular drug,
however, it makes representations to the FDA, which
in turn the FDA necessarily relies on, about the
integrity of the study performed by principal investigators. Allowing principal investigators to trade on
the nonpublic inside information entrusted to them
in the course of a study would thus undermine that
study’s integrity, the very reason why principal
investigators are vested with independence from the
drug’s corporate sponsor.

19a
Indeed, as indicated above, the contract creating
the relationship between Kosinski and Regado—the
CSRA—contained two significant provisions. First, his
contract required that the Study information conveyed
to Kosinski be held in “strict confidence,” which
provided Regado with the “trust and confidence” it
required to disclose to him critical inside information.
Falcone, 257 F.3d at 234. Regado would not have
provided this information had Kosinski not agreed to
keep the information confidential. This court has held
that such an “explicit acceptance of a duty of confidentiality” is itself sufficient to establish the necessary
fiduciary duty of trust and confidence. Id.; see also
Chestman, 947 F.2d at 571. Second, the contract
required Kosinski to inform Regado if the value of his
shares in that company exceeded $50,000. This served
to ensure that Kosinski’s assessment of the drug’s
safety and efficacy was independent of the company’s
interest in obtaining FDA approval. Had Kosinski
not agreed to make this disclosure, he could not have
been hired.
In sum, we conclude that there was sufficient
evidence that Kosinski’s role as a principal investigator clothed him with fiduciary status such that he
could not trade on Regado’s nonpublic inside information absent disclosure. Chestman, 947 F.2d at 565.
That conclusion is only reinforced by Kosinski’s
agreement to disclose to Regado when the value of his
shares exceeded $50,000, which he failed to do. The
evidence established that Kosinki’s unrevealed investment in Regado created a conflict between his
financial interest and his duty to objectively gather
and report information about REG1’s safety and
effectiveness. In these circumstances, his secret trading in Regado stock based on the nonpublic inside
information that was disclosed to him because of his

20a
relationship of trust and confidence constituted a
fraud on Regado.5
C. Kosinski’s Arguments To The Contrary Are
Without Merit
In urging otherwise, Kosinski first argues that he
did not violate federal securities law because he was
simply bound by the provisions of his agreement with
Regado not to disclose any confidential information
that he acquired as a result of his involvement as an
investigator in the Study, and he did not divulge any
such information in breach of the CSRA. But as we
have demonstrated, the agreement was significantly
broader than Kosinski asserts. The CSRA expressly
required that Kosinski complete a financial disclosure
form and promptly disclose if the value of his shares of
Regado stock exceeded $50,000. Kosinski breached
this duty to disclose, which was clearly designed to
inform Regado if Kosinski was no longer the independent assessor for whose services Regado contracted.
Kosinski’s breach of this condition constituted a
breach of the confidentiality agreement of which it was
an integral part.
Nor does it help Kosinski’s cause that the operative
CSRA contained a clause providing that Kosinski
would “maintain in strict confidence” Regado’s confidential information, while the preceding CDA contained a comparable prohibition on disclosure as well
as use of confidential information. The Supreme Court
5

Because we hold that the evidence was otherwise sufficient
to convict Kosinski, we do not address the application of
Rule 10b5–2, upon which the U.S. Attorney relies and which
provides that a “duty of trust or confidence” exists “[w]henever a
person agrees to maintain information in confidence.” 17 C.F.R.
§ 240.10b5–2(b)(1).

21a
has held that a temporary insider’s duty not to trade
on insider information can arise from an expectation
that “the outsider [will] keep the disclosed nonpublic
information confidential” and that his relationship
with the corporation at a minimum “must imply such
a duty.” Dirks, 463 U.S. at 655 n.14. It follows that the
absence of an express prohibition on trading is not
fatal here. In any event, we decline to infer Regado’s
intent to permit Kosinski to trade on nonpublic
Study information based on the CSRA’s omission of a
clause contained in the prior CDA, a conclusion only
reinforced by the CSRA’s merger clause, which stated
expressly that the CSRA embodied the entire understanding of the parties and thus rendered the CDA
irrelevant.6 The same is true of other agreements that
Regado may have had with third parties. See Applied
Energetics, Inc. v. NewOak Capital Mkts., LLC, 645
F.3d 522, 525–26 (2d Cir. 2011).
Similarly, we reject the notion that Kosinski could
not have been a fiduciary of Regado because the CSRA
labeled him an independent contractor. The Supreme
Court has held that independent contractors such
as outside attorneys, accountants, underwriters, and
consultants can serve as fiduciaries sufficient to
establish their insider trading liability. See Dirks, 463
U.S. at 655 n.14.
Moreover, we do not afford the contractual term
“independent contractor” controlling effect where such
a term, even in a private contract, implicates
6

The CSRA’s merger clause provided that: “This Agreement,
including Exhibits A and B, embodies the entire understanding
between [the LLC], [St. Vincent’s Medical Center], [Kosinski]
and [Regado] for [] the subject matter herein, and any prior or
contemporaneous negotiations, either oral or written, are hereby
superseded.” App’x at 243.

22a
significant public policies. See Brock v. Superior Care,
Inc., 840 F.2d 1054, 1059 (2d Cir. 1988) (stating that a
“self-serving label of [employees] as independent
contractors is not controlling”). Here, in light of the
significant public policy considerations “animating”
the Exchange Act, O’Hagan, 521 U.S. at 658, we
would decline to deem controlling language used by
private parties that would permit unlawful insider
trading. Nor do we find controlling cases between
private parties based on a cause of action for breach of
fiduciary duty, see, e.g., Spinelli v. Nat’l Football
League, 903 F.3d 185, 207–08 (2d Cir. 2018). Those
cases simply do not implicate any considerations of
federal public policy, much less considerations as
strong as those underlying the prohibition against
insider trading in the Exchange Act, as articulated by
Justice Ginsburg in O’Hagan.7

7

We have made a similar point in the context of the Securities
Act of 1933. In Kaiser-Frazer Corp. v. Otis & Co., 195 F.2d 838
(2d Cir. 1952), we declined to enforce a contract for sale of
securities by Kaiser-Frazer to one of its underwriters, Otis & Co.,
which claimed that Kaiser-Frazer misleadingly inflated its
profits in December 1947. Id. at 843–44. The record indicated,
however, that representatives of Otis were informed of the actual
December earnings and took part in the preparation of the
registration statement and prospectus. Id. at 843.
We nevertheless declined to apply the ordinary “rules of
estoppel or waiver,” because whatever those rules “may be in the
case of an ordinary contract of sale, nevertheless it is clear that a
contract which violates the laws of the United States and
contravenes the public policy as expressed in those laws is
unenforceable.” Id. Writing for the panel, Judge Augustus Hand
explained that “regardless of the equities as between the parties,
[] the very meaning of public policy is the interest of other than
the parties and that interest is not to be at the mercy of the
[parties] alone.” Id. at 844 (internal quotation omitted). “While it
may be argued that the enforcement of the underwriting contract

23a
We likewise reject the argument that Kosinski could
not have been a fiduciary because he dealt with
Regado at “arm’s-length,” a term that is often used but
rarely defined. We have held that while “[an arm’s
length] relationship is not by itself a fiduciary
relationship,” the “addition of a relationship of confidence [or] trust,” as was present here, “may indicate
that such a relationship exists.” In re Mid-Island
Hosp., Inc., 276 F.3d 123, 130 (2d Cir. 2002) (internal
quotation omitted); see also, e.g., Muller-Paisner v.
TIAA, 289 F. App’x 461, 466 (2d Cir. 2008) (summary
order) (relying on In re Mid-Island Hosp. to explain
that “a fiduciary duty may arise in the context of [such]
a commercial transaction upon a requisite showing of
trust and confidence,” as was present here).
We come now to Kosinski’s argument that the
evidence was insufficient to conclude that he was a
fiduciary of Regado on the basis of language in
Chestman highlighting three particular factors: that
“[a]t the heart of the fiduciary relationship lies
reliance, and de facto control and dominance.” 947
F.2d at 568. “Stated differently, a fiduciary relation
exists when confidence is reposed on one side and
there is resulting superiority and influence on the
other.” AG Cap. Funding Partners v. State St. Bank &
Tr. Co., 11 N.Y.3d 146, 158 (2008) (quoting Ne. Gen.
according to its terms would result only in the sale of the stock to
Otis and that such a sale would not violate the [Securities Act of
1933], we are satisfied that the contract was so closely related to
the performance of acts forbidden by law as to be itself illegal.”
Id. Similarly here, Kosinski’s actions substantially undermined
the policies underlying the Exchange Act relating to insider
trading. Accordingly, whether or not the language of the contract
would have provided a defense to a private breach of contract
action by Regado, Kosinski’s designation as an independent
contractor cannot control the legality of his trades.

24a
Corp. v. Wellington Adv., 82 N.Y.2d 158, 173 (1993)
(Hancock, J., dissenting)); see also Fisher v. Bishop,
108 N.Y. 25, 28 (1888) (fiduciary relationship exists
when “there has been a confidence reposed which
invests the person trusted with an advantage in
treating with the person so confiding”).
The evidence was sufficient here to find that
Kosinski’s relationship with Regado satisfied this
standard. As we observed earlier, Regado entrusted
Kosinski with the administration of a newly-created
drug to human beings because of his experience as a
principal investigator who could give Regado access to
his patients. His patients’ continued participation in
the Study presumably was dependent on Kosinski’s
relationship with them. Thus, while control of REG1
was Regado’s at the outset, it ceded that control, at
least for purposes of conducting the Study, to principal
investigators, such as Kosinski, relying on their
superior medical skill and expertise, and affording
them dominance in assessing how the drug actually
performed for patients. Regado relied upon Kosinski’s
professional independence and integrity to accurately
report back his results about REG1 from the Study,
without which information Regado’s clinical trial could
not be completed. Kosinski’s relationship with Regado
was therefore “characterized by a unique degree of
trust and confidence between the parties, one of whom
has superior knowledge, skill or expertise,” SEC v.
DiBella, 587 F.3d 553, 564 (2d Cir. 2009).
We have assumed for purpose of addressing
Kosinski’s argument that these three factors described
in Chestman reflect the only appropriate standard
from which the jury could find the requisite fiduciary

25a
relationship. They do not. We provide the following
detailed analysis of Chestman—more than would
otherwise be necessary—because of the extensive
reliance on these factors in Kosinski’s briefing.
8

Chestman’s reference to “reliance, and de facto
control and dominance” was a direct quotation from
United States v. Margiotta, 688 F.2d 108 (2d Cir.
1982), which concerned the federal mail fraud statute
and relied on New York law. It is helpful to place that
language in the context of the analysis prompting
its adoption. As framed by Judge Kaufman, writing
for the majority, Margiotta raised “the novel issue
whether an individual who occupies no official public
office but nonetheless participates substantially in the
operation of government owes a fiduciary duty to the
general citizenry not to deprive it of certain intangible
political rights that may lay the basis for a mail fraud
prosecution.” 688 F.2d at 121.
Judge Kaufman observed that “[t]he drawing of
standards in this area is a most difficult enterprise,”
because “[o]n the one hand, it is essential to avoid the
Scylla of a rule which permits a finding of fiduciary
duty on the basis of mere influence or minimum
participation in the processes of government.” Id. at
122.9 Such a rule would “threaten to criminalize a wide
8

We frame the issue in terms of the sufficiency of the evidence
because Kosinski never sought a jury instruction defining a
fiduciary relationship to require reliance, de facto control and
dominance. Nor does he raise on appeal the adequacy of the
charge in this respect, which did not include discussion of these
factors. Thus, he is forced to argue that the evidence was
insufficient as a matter of law.
9

Some years after Margiotta upheld an honest-services theory
of mail fraud, the Supreme Court construed the federal mail
fraud statute, 18 U.S.C. § 1341, to reach only schemes to deprive

26a
range of conduct, from lobbying to political party activities, as to which the public has no right to disinterested service.” Id. On the other hand, “the harm to
the public arising from the sale of public office and
other fraudulent schemes leads us to steer a course
away from the Charybdis of a rule which bars on all
occasions, as a matter of law, a holding that one who
does not hold public office owes a fiduciary duty to the
general citizenry even if he in fact is conducting the
business of government.” Id.
The Margiotta Court observed that while “there is
no precise litmus paper test,” it found two measures of
fiduciary status helpful in that context: (1) a reliance
test, under which one may be a fiduciary when others
rely upon him because of a special relationship in the
government, and (2) a de facto control test, under
which a person who in fact makes governmental
decisions may be held to be a governmental fiduciary.
Id.
These tests recognize the important distinction between party business and government
affairs, permitting a party official to act in
accordance with partisan preferences or even
whim, up to the point at which he dominates
government. Accordingly, the reliance and de
facto control tests carve out a safe harbor
for the party leader who merely exercises
a veto power over decisions affecting his
constituency.
Id.
victims of money or property. See United States v. McNally, 483
U.S. 350 (1987). Following McNally, Congress enacted 18 U.S.C.
§ 1346 to include “the intangible right of honest services” within
the ambit of the federal fraud statutes.

27a
In turn, although Chestman adopted Margiotta’s
measure of a fiduciary duty for a political leader,
such a measure is not necessarily appropriate for
other cases in other contexts. Significantly, as Judge
Robert Ward—who was sitting by designation on the
Margiotta panel and who cast the deciding vote in
this aspect of the case—later wrote, “the analysis in
Margiotta was directed at the precise parameters of
the facts involved in that case.” United States v. Reed,
601 F. Supp. 685, 708 n.35 (S.D.N.Y. 1985). Judge
Ward did “not read Margiotta or any other decision of
the Second Circuit as establishing a controlling
definition of the confidential relationship concept to be
applied in a variety of contexts, and particularly in the
instant case [before him].” Id. We agree.
Consistent with Judge Ward’s analysis, and without
reference to the Margiotta factors, this court subsequently held that under New York law, a fiduciary
relationship arises “when one [person] is under a duty
to act for or to give advice for the benefit of another
upon matters within the scope of the relation.”
Flickinger v. Harold C. Brown & Co., 947 F.2d 595,
599 (2d Cir. 1991) (internal quotation omitted).10 And
10

Indeed, three decades later, the New York Court of Appeals
defined a fiduciary relationship as “a duty to act for or to give
advice for the benefit of another upon matters within the scope of
the relation.” Oddo Asset Mgmt. v. Barclays Bank PLC, 19 N.Y.3d
584, 592–93 (2012). Likewise, two years ago, this court again
restated the definition of a fiduciary set out in Flickinger and
quoted the following summation of such a duty under New York
law: “Broadly stated, a fiduciary relationship is one founded upon
trust or confidence reposed by one person in the integrity and
fidelity of another. It is said that the relationship exists in all
cases in which influence has been acquired and abused, in which
confidence has been reposed and betrayed.” Galvstar Holdings,
LLC v. Harvard Steel Sales, LLC, 722 F. App’x 12, 15 (2d Cir.
2018) (quoting Penato v. George, 52 A.D.2d 939, 942 (2d Dep’t

28a
Chestman itself set out two other tests, immediately
after quoting from Margiotta, one of which is the
traditional test that one acts as a fiduciary when
the business which he transacts, or the money
or property which he handles, is not his
own or for his own benefit, but for the benefit
of another person, as to whom he stands in a
relation implying and necessitating great
confidence and trust on the one part and a
high degree of good faith on the other part.
947 F.2d at 568–69 (quoting Black’s Law Dictionary
(5th ed. 1979)). This traditional test aptly describes
the relationship between Kosinski and Regado.
Moreover, Chestman indicated that the result in
that case, which involved the transmittal of inside
information in the context of a family relationship,
might have been different had the transmittal been in
breach of an “express agreement of confidentiality.” Id.
at 571. Significantly, the Chestman court in 1991
expressed approval for Judge Ward’s 1985 opinion in
Reed that “the repeated disclosure of business secrets
between family members may substitute for a factual
finding of dependence and influence and thereby
sustain a finding of the functional equivalent of a
fiduciary relationship.” Id. at 569 (emphasis added).
Perhaps most significant is then-Judge Sotomayor’s
opinion in Falcone, which holds that a fiduciary
relationship can arise so long as “the party in whom
confidence is reposed has entered into a relationship
in which he or she acts to serve the interests of the
1976)). None of these cases described the Margiotta factors as a
prerequisite to fiduciary or fiduciary-like status, although that
standard is occasionally cited in other cases. See, e.g., AG Cap.
Funding Partners, 11 N.Y.3d at 158.

29a
party entrusting him or her with such information,”
257 F.3d at 234–35, without referencing a showing
of “de facto control and dominance,” Chestman, 947
F.2d at 568. Indeed, and perhaps for these reasons,
Kosinski concedes that he “has never maintained” that
only contracts bearing what he calls “‘the hallmarks
of a traditional fiduciary relationship’ can create the
necessary duty” sufficient to sustain insider trading
liability. Reply Br. at 7 n.2.
In sum, Chestman’s three-factor standard of
“reliance, and de facto control and dominance” does
not state the exclusive test of fiduciary status, nor the
proof necessary to sustain a conviction under the
misappropriation theory. The cases cited by Kosinski
that employ the standard of “reliance, and de facto
control and dominance,”11 Reply Br. at 4, did so (in the
words of the Supreme Court) in the context of “other
federal fraud statutes” and do not advance his cause
here, in the context of insider trading. Salman, 137 S.
Ct. at 428. Indeed, in Salman in 2016, the Supreme
Court merely “assum[ed]” that such “cases are
relevant to our construction of §10(b) (a proposition
the Government forcefully disputes)[.]” Id. In light
of our discussion of the limitations of the history
and application of Chestman’s three-factor standard,
we see no reason to extend it here merely because it
has been repeated in other contexts. Thus, while
the evidence here was indeed sufficient to find that
Kosinski owed Regado a fiduciary duty based on
reliance, control, and dominance, that conclusion does
11

See United States v. Halloran, 821 F.3d 321, 338–39 (2d Cir.
2016); United States v. Skelly, 442 F.3d 94, 99 (2d Cir. 2006);
United States v. Szur, 289 F.3d 200, 210 (2d Cir. 2002); United
States v. Brennan, 183 F.3d 139, 150 (2d Cir. 1999). Of these
cases, only Halloran turned on the application of this standard.

30a
not signal that only such factors can establish a
fiduciary duty for purposes of determining insidertrading liability.
D. The Jury Instruction On Breach Of Duty
Kosinski contends that the district court erred in
instructing the jury that “a person has a requisite duty
of trust and confidence whenever a person agrees to
maintain information in confidence.” Gov’t App’x at
1151. He maintains that this instruction “effectively
directed a verdict in favor of the government” because
it was undisputed at trial that Kosinski had agreed,
per the CSRA, to keep Regado’s information confidential. See Appellant Br. at 40.
“We consider a jury instruction erroneous ‘if it
misleads the jury as to the correct legal standard or
does not adequately inform the jury on the law.’”
United States v. Silver, 864 F.3d 102, 118 (2d Cir.
2017) (quoting United States v. Finazzo, 850 F.3d 94,
105 (2d Cir. 2017)). Even where an instruction is
erroneous, we will affirm if it is “clear beyond a
reasonable doubt that a rational jury would have
found the defendant guilty absent the error.” United
States v. Sheehan, 838 F.3d 109, 121 (2d Cir. 2016)
(internal quotation marks and citation omitted).
We need not decide here whether the district court’s
instruction to the jury that “a person has a requisite
duty of trust and confidence whenever a person agrees
to maintain information in confidence” was erroneous.
Assuming arguendo that it was, any error in the
instruction was harmless. As discussed supra,
the trial evidence overwhelmingly established that
Kosinski had a fiduciary or fiduciary-like duty to
Regado, and we are convinced “that a rational jury
would have found [Kosinski] guilty absent the error.”

31a
Sheehan, 838 F.3d at 121 (internal quotation marks
omitted).
II. Willfulness
Kosinski argues that the district court gave an
improper jury instruction on the willfulness element
of his alleged breach of his fiduciary duty, and that the
evidence was insufficient to prove willfulness under
the proper standard.
Section 32(a) of the Securities Exchange Act
provides that:
Any person who willfully violates any provision of this chapter . . . , or any rule or
regulation thereunder the violation of which
is made unlawful or the observance of which
is required under the terms of this chapter . . .
shall upon conviction be fined not more than
$5,000,000 or imprisoned not more than 20
years, or both . . . ; but no person shall be
subject to imprisonment under this section
for the violation of any rule or regulation if he
proves that he had no knowledge of such rule
or regulation.
15 U.S.C. § 78ff(a) (emphasis added). Thus, Kosinski
must have “willfully violate[d]” § 10b and Rule 10b–5
to be held criminally liable for such violations.
A. The Jury Instructions
The trial judge gave the jury the following relevant
instruction on what the judge called “the second
element [of the offense]: knowledge, intent, and
willfulness”:
The second element that the Government
must prove beyond a reasonable doubt is that

32a
the defendant participated in the scheme to
defraud knowingly, willingly, and with the
intent to defraud. To act knowingly means to
act voluntarily and deliberately rather than
mistakenly or inadvertently. To act willfully
means to act knowingly and purposefully
with the intent to do something that the law
forbids, that is, with bad purpose either to
disobey or to disregard the law. . . . It is not
required that the Government show that Dr.
Kosinski, in addition to knowing what he was
doing and deliberately doing it, also knew
that he was violating some particular statute.
But the defendant must have acted with
knowledge and intent to carry out the insider
trading scheme.
GA 1154–55.
Kosinski argues that the above instruction failed
to adequately convey that Kosinski’s guilt required
that he knew that his conduct was unlawful under
the securities laws. The government responds that
the instruction accurately explained the willfulness
requirement, which does not require any knowledge
that the defendant knew he was violating the
securities laws.
At the outset, we observe that Kosinski did not
request an instruction that he must have known he
was violating the securities laws, an omission that
would normally limit our review to plain error.
See Fed. R. Crim. P. 52(b). Here, however, Kosinski’s
conduct may have amounted to waiver, and not merely

33a
forfeiture, which would preclude even plain error
review.12
Contrary to Kosinski’s argument on appeal, he
appears to have endorsed the substance of the given
charge. We have explained that “if a party invited the
charge . . . she has waived any right to appellate
review of the charge.” United States v. Giovanelli, 464
F.3d 346, 351 (2d Cir. 2006). Kosinski’s own request
to charge defined “willful conduct” as a “voluntary,
intentional violation of a known legal duty and is
synonymous with conduct that is done with bad
purpose or evil motive either to disobey or to disregard
the law.” Gov’t App’x at 1276. In this respect, it was
identical to the district court’s charge. And the defense
repeated this position at the charge conference: “Your
Honor, our position really just is that the instruction
needs to be clear that the willfulness requires a
showing that the defendant had knowledge that his
conduct was unlawful.” Id. at 1226. “Such endorsement might well be deemed a true waiver, negating
even plain error review.” United States v. Hertular,
562 F.3d 433, 444 (2d Cir. 2009).
Even assuming arguendo that Kosinski’s conduct
at trial constituted correctable forfeiture, however,
12

It is well established that waiver is different from forfeiture.
See United States v. Olano, 507 U.S. 725, 733 (1993) (“Whereas
forfeiture is the failure to make the timely assertion of a right,
waiver is the intentional relinquishment or abandonment of a
known right.”). We have explained that “[i]f a party’s failure to
take an evidentiary exception is simply a matter of oversight,
then such oversight qualifies as a correctable ‘forfeiture’ for the
purposes of plain error analysis.” United States v. Yu-Leung, 51
F.3d 1116, 1122 (2d Cir. 1995). “If, however, the party consciously
refrains from objecting as a tactical matter, then that action
constitutes a true ‘waiver,’ which will negate even plain error
review.” Id.

34a
Kosinski still cannot demonstrate error, and certainly
not plain error. The Supreme Court has held that, “[a]s
a general matter, when used in the criminal context, a
‘willful’ act is one undertaken with a ‘bad purpose.’ In
other words, in order to establish a ‘willful’ violation of
a statute, ‘the Government must prove that the
defendant acted with knowledge that his conduct
was unlawful.’” Bryan v. United States, 524 U.S. 184,
191–92 (1998) (quoting Ratzlaf v. United States, 510
U.S. 135, 137 (1994)). Moreover, in Bryan, the Court
approved a willfulness charge instructing that so long
as a defendant “act[s] with the intent to do something
that the law forbids,” he need not be aware “of the
specific law or rule that his conduct may be violating.”
Id. at 190 (quoting jury instructions).
While Bryan made these pronouncements in the
context of a federal firearms conviction, this court has
recognized that its definition of willfulness is generally
applicable. As a general matter, “a person who acts
willfully need not be aware of the specific law that his
conduct may be violating. Rather, ‘knowledge that the
conduct is unlawful is all that is required.’” United
States v. Henry, 888 F.3d 589, 599 (2d Cir. 2018)
(quoting Bryan, 524 U.S. at 196). When a statute
limits criminal liability to “willful” violations, it does
not necessarily “carve out an exception to the traditional rule that ignorance of the law is no excuse.”
Bryan, 524 U.S. at 195–96.
A heightened standard of willfulness, demanding
“[k]nowledge of the specific law that one is violating[,]
has been required only where a ‘highly technical
statute[]’—such as a provision of the Internal Revenue
Code—prohibits ‘apparently innocent conduct.’” Henry,

35a
888 F.3d at 599 (quoting Bryan, 524 U.S. at 196).13 The
insider trading activities that Section 10(b) and Rule
10b–5 prohibit, by contrast, cannot be described as
“apparently innocent.” Henry, 888 F.3d at 599; see
United States v. O’Hagan, 139 F.3d 641, 647 (8th Cir.
1998) (recognizing that § 10(b) violations “necessarily
involve[] fraudulent conduct and breaches of duty by
the defendant,” and “do not involve conduct that is
often innocently undertaken”).
United States v. Cassese, 428 F.3d 92 (2d Cir. 2005),
relied on by Kosinski, is not to the contrary. While the
panel majority there defined willfulness as “‘a realization on the defendant’s part that he was doing a
wrongful act’ under the securities laws,” see id. at 98
(emphasis added) (quoting United States v. Peltz, 433
F.3d 48, 55 (2d Cir. 1970)), this court has since
clarified that the highlighted language did not depart
from precedent to require a securities defendant’s
awareness of more than the general unlawfulness of
his conduct. United States v. Kaiser, 609 F.3d 556, 569
(2d Cir. 2010).14
13

See, e.g., Cheek v. United States, 498 U.S. 192, 205 (1991)
(stating that, in some tax cases, willfulness requires defendant’s
knowledge of specific legal duty violated because “uncertainty”
about “our complex tax system . . . often arises even among
taxpayers who earnestly wish to follow the law”); see also Ratzlaf
v. United States, 510 U.S. 135, 136, 144 (1994) (stating same as
to statutory prohibition against structuring of cash transactions
to avoid triggering financial institutions’ legal reporting requirement, conduct that “is not inevitably nefarious”).
14

As Kaiser observed, the Cassese majority “did not reach
the question of whether willfulness required only awareness of
general unlawfulness or whether it required that the defendant
knowingly commit the specific violation charged,” finding the
evidence insufficient as a matter of law under either standard.
609 F.3d at 569; see Cassese, 428 F.3d at 95. Only Judge Raggi,

36a
All in all, Kosinski’s challenge fails because he
cannot demonstrate that the purported error is plain,
much less that he sustained any prejudice or that the
fairness, integrity, or public reputation of his judicial
proceedings was called into question. See Olano, 507
U.S. at 732–37.
B. Legal Sufficiency
Although we review a defendant’s challenge to the
sufficiency of the evidence de novo, “we will uphold the
judgment[] of conviction if ‘any rational trier of fact
could have found the essential elements of the crime
beyond a reasonable doubt,’” Martoma, 894 F.3d at 72
(quoting Jackson, 443 U.S. at 319). “In evaluating a
sufficiency challenge, we must view the evidence in
the light most favorable to the government, crediting
every inference that could have been drawn in the
government’s favor, and . . . uphold[ing] the judgment
of conviction if any rational trier of fact could have
found the essential elements of the crime beyond a
reasonable doubt.” Id. (internal quotation marks,
brackets, and emphasis omitted).
Viewed in the light most favorable to the government, the trial evidence was sufficient to allow a
rational jury to conclude that Kosinski’s insider
trading was willful under the instruction given by the

in dissent, analyzed the appropriate standard, and concluded—
correctly—that the “only proof of knowledge required to establish
a willful violation of the Exchange Act is the defendant’s awareness of the general unlawfulness of his conduct.” Cassese, 428
F.3d at 109. Thus, Cassese does not clearly establish the willfulness standard urged by Kosinski, as necessary for the first two
prongs of plain error. But the point warrants no further
discussion because Kaiser makes plain that Kosinski cannot show
any charging error.

37a
district judge, which was consistent with Kosinski’s
own request and the law. The jury heard evidence that
Kosinski was a “sophisticated investor,” particularly
“in the pharmaceutical sector” who regularly dealt
in options. Gov’t App’x at 565, 1007. Indeed, while
working as principal investigator for Regado, he
not only traded to avoid a loss of $160,000, but also,
after learning that a patient had died, he traded to
profit from that inside information by purchasing
put options. The government presented evidence that
Kosinski knew that he was trading on nonpublic inside
information, based on his receipt of the information at
issue pursuant to a confidentiality agreement as well
as his subsequent admissions that he did not feel good
about the trades at the time he made them (that they
were the product of “greed and stupidity”). Indeed, the
admissions by themselves might suffice to show he
knew his conduct violated the law.
There is more evidence indicating willfulness.
Kosinski was only able to engage in the charged conduct because of lies and deceit. First, in breach of his
contract with Regado, he failed to advise Regado that
he had accumulated far more than the minimal stock
holdings in that company that he was permitted to
own without disclosure. And he failed to do so even
though he had been told that such disclosure was
crucial to the FDA. Nor did he disclose his use of
Regado’s inside information to trade in the manner in
which he did. Moreover, he lied to St. Vincent’s
Hospital, which was also a party to the CSRA with
Regado when, in seeking its permission to conduct the
Study there, he falsely stated that he did not own any
Regado shares in response to a specific inquiry.
Taken together, this evidence of Kosinski’s deceptive activity was sufficient for the jury to find that

38a
Kosinski knew his actions were unlawful under the
charge given by the district court.
III. The District Court’s Evidentiary Rulings Did
Not Abuse Its Discretion
Kosinski sought to elicit testimony from FBI agent
McGoey on cross examination that in the same August
2016 five-minute telephone conversation in which
Kosinski stated that he “didn’t feel good about making
those trades when he had made them” and described
his conduct as motivated by “greed and stupidity,”
see supra at 14, he also made two other statements:
(i) before McGoey informed Kosinski that he had
been indicted, Kosinski told him that he had not
yet retained counsel, and (ii) after McGoey informed
Kosinski that he had been indicted, Kosinski said
“I can’t believe this is happening.” Over Kosinski’s
objections, the district court excluded those statements as inadmissible hearsay. Kosinski now challenges those rulings, arguing that both statements
were admissible under the rule of completeness and as
excited utterances.
“We review a district court’s evidentiary rulings
under a deferential abuse of discretion standard, and
we will disturb an evidentiary ruling only where the
decision to admit or exclude evidence was ‘manifestly
erroneous.’” United States v. Litvak, 889 F.3d 56, 67
(2d Cir. 2018) (quoting United States v. McGinn, 787
F.3d 116, 127 (2d Cir. 2015)).
A. Kosinski’s Statement That He Had Not
Retained Counsel
We reject Kosinski’s argument that his statement
that he had not retained counsel was an excited utterance. First, Kosinski concedes he made that statement

39a
before Agent McGoey informed him of the indictment.
Second, Kosinski’s resort to the argument that “the
phone call from the FBI was itself a startling event”
under Federal Rule of Evidence 803(2) is without
merit, particularly since he had already spoken with
the FBI approximately two months earlier. Nor did the
district court abuse its discretion by declining to admit
this statement under the rule of completeness. See
United States v. Johnson, 507 F.3d 793, 796 & n.2 (2d
Cir. 2007) (no error where court could reasonably
conclude that the statement was not “relevant to the
admitted passages”); see FED. R. EVID. 106.
B. Kosinski’s Statement That
Believe This Is Happening”

He

“Can’t

We likewise conclude that the district court did not
abuse its discretion by excluding Kosinski’s second
statement to Agent McGoey—that “I can’t believe this
is happening”—when McGoey told him he had been
indicted. While learning that one has been indicted
could perhaps under certain circumstances be a
startling event, those circumstances are not present
here. Kosinski had spoken with Agent McGoey for
close to an hour and a half about two months prior
about “Dr. Kosinski’s trading in Regado,” which
Kosinski knew was based on nonpublic, inside information. Gov’t App’x at 421–22. The parties, however,
stipulated not to elicit any testimony from that first
conversation in order to avoid a “hearsay fight” over
the admissibility of certain of Kosinski’s statements.
Id. at 423.
Because of that stipulation, the district court did not
have sufficient information—and neither do we—to
determine whether Kosinski’s indictment was startling despite what he could have gleaned from the
earlier conversation: namely, that he was possibly a

40a
subject or target of the FBI’s investigation for insider
trading. Under these circumstances, we cannot say
that the district court’s decision to exclude this
statement was “manifestly erroneous.” Litvak, 889
F.3d at 67. Nor was the statement necessary under the
rule of completeness to place into context Kosinski’s
comments introduced by the government, which did
not relate to this statement by Kosinski.
CONCLUSION
The judgment of conviction is AFFIRMED.

41a
APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
————
Criminal Case No. 3:16-CR-00148 (VLB)
————
UNITED STATES OF AMERICA
v.
EDWARD KOSINSKI
————
August 16, 2017
————
Memorandum of Decision Denying
Defendant’s Motion to Dismiss the Indictment
Before the Court is Defendant’s Motion to Dismiss
the Indictment for failure to state an offense under
Federal Rule of Criminal Procedure 12(b)(3). For
the reasons that follow, the Defendant’s Motion is
DENIED.
I. Background
On August 3, 2016, a federal grand jury sitting in
New Haven, Connecticut returned an indictment
against Defendant Edward Kosinski charging him
with two counts of Insider Trading in violation of 17
C.F.R. Section 240.10b-5 and 15 U.S.C. Sections 78j(b)
and 78ff. [Dkt. 1 (Indictment).] The Indictment alleges
as follows.
Throughout the relevant time period, Defendant
was a resident of Weston, Connecticut and the presi-

42a
dent of President of Connecticut Clinical Research,
LLC (“CCR”), located in Bridgeport, Connecticut.
Indictment at ¶ 1. Regado Biosciences, Inc. (“Regado”)
is a publicly traded biopharmaceutical company incorporated in Delaware and principally located in New
Jersey. Id. at ¶ 2. From approximately September
2013 through June 2014, Regado enrolled patients in
a clinical trial to study the efficacy of a clinical drug
candidate (the “Trial”). Id. at ¶ 3. Regado hired the
Cleveland Clinical Coordinating Center for Clinical
Research (“C5 Research”) to coordinate and manage
the Trial. Id.
On or about June 12, 2013, Defendant, on behalf of
CCR, entered into a Confidential Disclosure Agreement (the “Disclosure Agreement”) with Regado. The
Disclosure Agreement granted CCR the right to
receive confidential, proprietary information to “evaluate CCR’s interest in participating in the Trial,” and
required CCR to “treat the information received confidentially and not disclose such information” without
Regado’s prior written consent. Id. at ¶ 4.
On or about January 29, 2014, Defendant entered
into a Clinical Study and Research Agreement (the
“Research Agreement”) with C5 Research, an authorized agent of Regado. Id. at ¶ 5. Defendant executed
the Research Agreement both individually, as a
principal investigator, and on behalf of CCR. Id. The
Research Agreement required CCR and Defendant
to “maintain in strict confidence all confidential
information . . . provided by C5 Research or Regado
during the course of the Trial.” Id.
Between approximately October 2013 and May
2014, Defendant purchased 40,000 shares of Regado
common stock. Id. at ¶ 6. On or about June 29, 2014,
C5 Research informed Trial investigators and coordi-

43a
nators, including Defendant, that several Trial participants had allergic reactions to the clinical drug candidate. Id. at ¶ 8. As a result, C5 Research indicated it
would accept no new Trial participants until July 2,
2014 and the Data and Safety Monitoring Board would
assess the Trial. Id. This information was confidential,
non-public and material. Id.
On or about the following day, June 30, 2014,
Defendant sold his $40,000 shares of Regado common
stock for between $6.59 and $7.00 per share, for a total
of approximately $272,561. Id. at ¶ 9. He did so
knowingly, willfully, with intent to defraud, and in
violation of a duty of trust and confidence owed to
Regado and C5 Research. Id.
On July 2, 2014, the closing price of Regado common
stock was $6.76. Id. at ¶ 10. After the stock market
closed that day, Regado publicly announced that participant enrollment in the Trial was paused pending
the Data and Safety Monitoring Board’s assessment.
Id. at ¶ 10. On July 3, 2014, the closing price of Regado
common stock was $2.81. Id. at ¶ 11. By selling his
stock before July 2, 2014, Defendant avoided a loss of
approximately $160,000. Id.
On July 29, 2014, C5 Research informed Defendant
and other investigators and study coordinators that a
Trial participant had died and the Trial was on hold
pending the Data and Safety Monitoring Board’s
assessment. Id. at ¶ 14. The information was confidential, non-public, and material. Id.
Approximately two days later, on or about July 31,
2014, Defendant purchased 50 Regado put-option
contracts with a strike price of $2.50 and an expiration
date of October 18, 2014. Id. at ¶ 15. This gave
Defendant the right to sell 5,000 shares of Regado

44a
common stock on or before October 18, 2014 for $2.50
per share. Id. He did so knowingly, willfully, with
intent to defraud, and in violation of a duty of trust
and confidence owed to Regado and C5 Research. Id.
The closing price of Regado common stock that day
was $2.98. Id. at ¶ 16.
On or about August 25, 2014, Regado publicly
announced that it had permanently halted the Trial.
Id. at ¶ 17. Over the course of that day, Regado common stock prices fell to $1.13 per share. Id. Approximately three days later, on or about August 28, 2014,
Defendant purchased 5,000 shares of Regado common
stock for approximately $1.13 per share. Id. at ¶ 18.
Defendant then exercised his put option, selling his
5,000 shares for $2.50 per share and netting a profit of
over $3,000. Id.
Defendant self-surrendered and was arraigned
on August 4, 2016. [Dkt. 4.] Defendant entered a
$500,000.00 non-surety bond and agreed to conditional pre-trial release. [Dkts. 5, 6.]
II. Standard For Dismissal Of An Indictment
“An indictment returned by a legally constituted
and unbiased grand jury, like an information drawn
by the prosecutor, if valid on its face, is enough to call
for trial of the charge on the merits.” Costello v. United
States, 350 U.S. 359, 363 (1956). An indictment is valid
if it “first, contains the elements of the offense charged
and fairly informs a defendant of the charge against
which he must defend, and, second, enables him
to plead an acquittal or conviction in bar of future
prosecutions for the same offense.” United States v.
Alfonso, 143 F.3d 772, 776 (2d Cir. 1998) (quoting
Hamling v. United States, 418 U.S. 87, 117 (1974)).

45a
When identifying the elements of a crime of indictment, courts look to “the language employed by
Congress” in the applicable statute and assume
“the ordinary meaning of the language accurately
expresses the legislative purpose.” United States v.
Aleynikov, 676 F.3d 71, 76 (2d Cir. 2012). While an
indictment must allege all of the elements of the crime
of indictment, it has “never been thought that an
indictment, in order to be sufficient, need anticipate
affirmative defenses.” United States v. Sisson, 399
U.S. 267, 288 (1970).
When determining whether an indictment asserts
facts to fulfill each element of the crime alleged, courts
accept as true the allegations in the charging document. Alfonso, 143 F.3d at 776-77. An indictment must
“contain some amount of factual particularity to
ensure that the prosecution will not fill in elements of
its case with facts other than those considered by the
grand jury.” United States v. Walsh, 194 F.3d 37, 44
(2d Cir. 1999). However, courts have “consistently
upheld indictments that do little more than to track
the language of the statute charged and state the time
and place (in approximate terms) of the alleged crime.”
Id. at 44. “[T]he sufficiency of the evidence is not
appropriately addressed on a pretrial motion to
dismiss an indictment” unless “the government has
made what can fairly be described as a full proffer of
the evidence it intends to present at trial.” Alfonso, 143
F.3d at 776-77; see also Costello, 350 U.S. at 363 (“If
indictments were to be held open to challenge on the
ground that there was inadequate or incompetent
evidence before the grand jury, the resulting delay
would be great.”).

46a
III. Analysis
Defendant moves to dismiss the Indictment for
failure to state an offense under Federal Rule of
Criminal Procedure 12(b)(3). Specifically, Defendant
asserts the Indictment fails to allege a duty of trust
and confidence prohibiting Defendant from trading
securities based on confidential information concerning the Trial. The Government opposes Defendant’s
Motion.
a. The Duty of Trust and Confidence
The Indictment alleges Defendant violated the
Securities Exchange Act of 1934 as codified at 15
U.S.C. Sections 78j(b) and 78ff,1 and SEC Rule 10b-5,
codified at 17 C.F.R. 240.10b-5. 15 U.S.C. Section
78j(b), which codifies Section 10(b) of the Securities
Exchange Act of 1934,2 prohibits the use “in connection
with the purchase or sale of any security . . . [of] any
manipulative or deceptive device or contrivance in
contravention of such rules and regulations as the
Commission may prescribe.” Pursuant to this section,

1

15 U.S.C. Section 78ff states anyone who willfully violates
the Securities Exchange Act of 1934 “shall upon conviction be
fined not more than $5,000,000, or imprisoned not more than 20
years, or both.”
2

15 U.S.C. Section 78j codifies Section 10(b) of the Securities
Exchange Act of 1934, which prohibits the “use or employ[ment],
in connection with the purchase or sale of any security . . . any
manipulative or deceptive device or contrivance in contravention
of such rules and regulations as the Commission may prescribe
as necessary or appropriate in the public interest or for the
protection of investors.” Courts often reference violations of 15
U.S.C. Section 78j(b) as Section 10(b) violations; the Court will so
reference them here.

47a
the SEC promulgated Rule 10b-5 which provides in
pertinent part:
“It shall be unlawful for any person, directly
or indirectly, by the use of any means or
instrumentality of interstate commerce, or of
the mails or of any facility of any national
securities exchange, (a) To employ any device,
scheme, or artifice to defraud, [or] . . . (c) To
engage in any act, practice, or course of
business which operates or would operate as
a fraud or deceit upon any person, in
connection with the purchase or sale of any
security.”
17 CFR § 240.10b-5 (1979); see also Chiarella v. United
States, 445 U.S. 222, 225-26 (1980) (explaining the
relation between 15 U.S.C. Section 78j(b) and Rule
10b-5).
A person who uses non-public information for his
own benefit in securities trading commits a “fraud” in
two instances. First, under the “classical” theory, a
fiduciary3 of a corporation commits a fraud by violating a duty to disclose or abstain from trading on
confidential information obtained because of the
fiduciary’s position with the corporation. United States
v. O’Hagan, 521 U.S. 642, 652 (1997). The duty arises
out of the “relationship of trust and confidence” which
exists between a corporation’s shareholders and
fiduciaries. Id.
Second, under the “misappropriation” theory, an
individual commits a fraud by violating a duty to
3

A fiduciary of a corporation is a “corporate insider, such as
an officer of the corporation,” who has “obtained confidential
information by reason of [his] position with that corporation.”
United States v. Falcone, 257 F.3d 226, 229 (2d Cir. 2001).

48a
disclose or abstain from trading on confidential information obtained from a source with whom the individual has a relationship of trust and confidence.
O’Hagan, 521 U.S. at 652. The relationship of trust
and confidence is not created “unilaterally, by entrusting a person with confidential information” but
rather when “there is explicit acceptance of a duty of
confidentiality or where such acceptance may be
implied from a similar relationship of trust and
confidence between the parties.” United States v.
Falcone, 257 F.3d 226, 234 (2d Cir. 2001) (citing
United States v. Chestman, 947 F.2d 551, 567 (2d Cir.
1991)). A “similar relationship of trust and confidence”
exists where the parties have the “functional
equivalent of a fiduciary relationship,” namely, when
the beneficiary of the relationship “rel[ies] on a
fiduciary to act for his benefit” and in doing so
“entrust[s] the fiduciary with custody over property of
one sort or another.” Chestman, 947 F.2d at 569.
b. The Confidentiality Agreements Create a
Duty of Trust and Confidence
Both parties agree the Indictment relies on the
misappropriation theory. [Dkt. 26 (Motion to Dismiss);
Dkt. 31 (Opposition).] However, the parties disagree
as to whether the Research Agreement and Disclosure
Agreement (together, the “Confidentiality Agreements”) created a relationship of trust and confidence
which prohibited Defendant from trading on confidential information concerning the Trial. The disagreement concerns 17 C.F.R. Section 240.10b5-2(a) (hereafter “Rule 10b5-2”), which “provides a non-exclusive
definition of circumstances in which a person has a
duty of trust or confidence for the purposes of the
‘misappropriation’ theory of insider trading under
Section 10(b) of the Act and Rule 10b-5.” Rule 10b5-2

49a
Preliminary Note. One of the circumstances creating a
“duty of trust or confidence” is “[w]henever a person
agrees to maintain information in confidence.” Rule
10b5-2(b).
The Government asserts Defendant owed Regado
and C5 Research a duty of trust and confidence under
Rule 10b5-2. Defendant argues Rule 10b5-2 establishes no such duty for three reasons: (i) Rule 10b5-2
is not cited in the Indictment; (ii) the wording of Rule
10b5-2 does not track exactly the language in the
Supreme Court’s definition of misappropriation liability; and (iii) affording Rule 10b5-2 its plain meaning
would impermissibly extend the reach of Section 10(b).
The Court addresses each argument in turn.
First, Defendant asserts that Rule 10b5-2 does not
apply because it is not cited in the Indictment. Rule
10b5-2 applies to “any violation of Section 10(b) of the
Act (15 U.S.C. 78j(b)) and § 240.10b-5 thereunder that
is based on the purchase or sale of securities on the
basis of, or the communication of, material nonpublic
information misappropriated in breach of a duty of
trust or confidence.” Rule 10b5-2(a). The rules of
statutory construction direct courts to assign a statute
meaning according to the plain language of terms. See
Aleynikov, 676 F.3d at 76. Accordingly, the Court
construes Rule 10b5-2 as applying to “any” violation of
the type described therein even where, as here, the
indictment does not cite Rule 10b5-2. This interpretation is consistent with other courts within the Second
Circuit. See, e.g., U.S. v. Corbin, 729 F. Supp. 2d 607,
615 (S.D.N.Y. 2010) (finding an indictment under
Section 10(b) and Rule 10b-5 which asserted the
defendant agreed to maintain information in confidence sufficiently alleged “a duty of trust or confidence

50a
for the purposes of maintaining a prosecution based on
misappropriation theory under Rule 10b5-2(b)(1)”).
Second, Defendant asserts that Rule 10b5-2 could
not inform the application of Section 10(b) because
Rule 10b5-2 states a “duty of trust or confidence
exists . . . [w]henever a person agrees to maintain
information in confidence,” while the misappropriation theory requires a “duty of trust and confidence.”
See Rule 10b5-2(a) (emphasis added); O’Hagan, 521
U.S. at 652 (emphasis added). The rules of statutory
construction dispose of this argument as well. The
Court must consider the statute as a whole and consult
its relevant legislative history to determine its meaning. Interstate Commerce Comm’n v. J.T. Transport
Co., 368 U.S. 81, 107 (1961). Rule 10b5-2 repeatedly
states it is intended to apply to Section 10(b) and the
misappropriation theory. See Rule 10b5-2 Preliminary
Note, subsection (a). In addition, the SEC’s Executive
Summary of Rule 10b5-2 states Rule 10b5-2 is
intended to resolve disagreements among the courts
regarding the application of Section 10(b) and Rule
10b-5. See Final Rule: Selective Disclosure and Insider
Trading, Exchange Act Release Nos. 33-7881, 3443154 (Oct. 23, 2000) at Section III (hereafter “Final
Rule”). Despite the statute’s wording and the SEC’s
intent in enacting Rule 10b5-2, Defendant asserts the
phrase “trust or confidence” renders it inapplicable to
Section 10(b). The Court shall not read Rule 10b5-2 to
include such an internal contradiction. See United
States v. Ron Pair Enters., 489 U.S. 235, 240 (1989)
(holding a statute should be upheld according to its
plain meaning if it is “coherent and consistent”).
Finally, Defendant asserts Rule 10b5-2 extends
beyond the scope of Section 10(b) by creating liability
where there is a confidentiality agreement but no

51a
agreement not to trade upon the confidential information. In support of this argument, Defendant cites
SEC v. Cuban, 634 F. Supp. 2d 713 (N.D. Tex. 2009)
(vacated on other grounds). The Cuban Court determined that an agreement which only expressly
prohibits disclosing confidential information does not
also create a duty not to trade securities based on that
information. Id. at 728. Because trading on the
information would not violate the strict terms of the
confidentiality agreement, the Cuban Court reasoned
such trading would not constitute “deception.” Id. As
Section 10(b) gave the SEC authority to proscribe
conduct that is “manipulative or deceptive,” the Cuban
Court concluded Section 10(b) does not contemplate
prohibiting securities trading where only a confidentiality agreement exists. Id. (citing Section 10(b)). The
Cuban Court accordingly concluded Rule 10b5-2
exceeds the scope of Section 10(b). Id.
The Court declines to find that affording Rule 10b52 its plain meaning would impermissibly extend
beyond Section 10(b). “When a court reviews an
agency’s construction of the statute which it administers,” the court must consider “whether Congress has
directly spoken to the precise question at issue.”
Chevron v. Natural Res. Def. Council, 467 U.S. 837,
843 (1984). Where the statute does not speak directly
to the precise question, but rather leaves “ambiguity
in [the] statute meant for implementation by an
agency,” the court must uphold the agency’s interpretation if it “is based on a permissible construction of
the statute.” Nat’l Cable & Telecomm. Ass’n v. Brand
X Internet Servs., 545 U.S. 967, 986 (2005) (discussing
Chevron, 467 U.S. at 843). An interpretation is
“permissible” if it is “a reasonable policy choice for the
agency to make.” Id. at 986.

52a
Section 10(b) does not state what duties, if breached
through “manipulation or deception,” create misappropriation theory liability. See supra note 2 (text of
Section 10(b)). Accordingly, if the SEC’s interpretation
of those duties as including the duty to maintain
information in confidence is “a reasonable policy
choice,” the Court shall uphold it.
The Court finds the SEC’s interpretation reasonable. The SEC’s interpretation is consistent with this
Circuit’s precedent which, both before and after Rule
10b5-2’s enactment, recognized that a confidentiality
agreement creates a duty of trust and confidence
under the misappropriation theory. In 1991, the
Second Circuit recognized two avenues for establishing a duty of trust and confidence under the misappropriation theory: an “express agreement of confidentiality” or a “pre-existing fiduciary relation . . . or
its functional equivalent.” Chestman, 947 F.2d at 571.
Six years later, the Supreme Court affirmed that an
individual violates Section 10(b) “when he misappropriates confidential information for securities
trading purposes.” O’Hagan, 521 U.S. 642, 643 (1997).
When the SEC enacted Rule 10b5-2, it considered “the
fundamental unfairness of insider trading” and
Congress’s “strong support for [the SEC’s] insider
trading enforcement program,” and found the misappropriation theory as described in O’Hagan was
“consistent with the animating purpose of the federal
securities laws.” Final Rule at Section III. The SEC
also cited Chestman in its Executive Summary of Rule
10b5-2 as part of the regime of case law upon which
the Rule was based. Id. at Section III(b)(1). After Rule
10b5-2’s enactment, courts within the Second Circuit
have continued to recognize that confidentiality
agreements create a duty under the misappropriation

53a
theory. See, e.g., U.S. v. Falcone, 257 F.3d 226, 233 (2d
Cir. 2001).
4

Further, the SEC promulgated Rule 10b5-2 in 2002.
Despite Cuban and its contrary application of the
Rule, Congress has not enacted clarifying legislation
limiting the reach of Rule 10b5-2. Rather, Congress
has allowed the SEC to continue to apply Rule 10b5-2
as it is written. This indicates a congressional affirmance of the Rule as appropriate in scope.
The Court finds the SEC’s interpretation of Section
10(b) in Rule 10b5-2 a “reasonable policy choice” and
rejects Defendant’s final argument against applying
the Rule here. See also United States v. Corbin, 729 F.
Supp. 2d 607, 617-19 (finding Rule 10b5-2 did not
exceed the SEC’s rulemaking authority under Chevron
analysis). Defendant’s Motion to Dismiss for failure to
allege a duty of trust and confidence through the
Confidentiality Agreements is DENIED.
a. Whether a Fiduciary-Like Relationship
Creates a Duty of Trust and Confidence
The parties also disagree as to whether the Indictment alleges a fiduciary-like relationship between

4

The cases within the Second Circuit which Defendant cites
do not hold otherwise. See Nolan Bros. of Texas, Inc. v. Whiterhaven,
LLC, 2004 WL 376265 at *1 (S.D.N.Y. 2004) (stating a confidentiality agreement does not necessarily create a fiduciary
relationship between the parties to a civil contract); Litton Indus.,
Inc. v. Lehman Bros. Kuhn Loeb Inc., 767 F. Supp. 1220 (S.D.N.Y.
1991) (holding the receipt of confidential information without a
confidentiality agreement does not create a duty not to trade on
the information); United States v. Cassesse, 273 F. Supp. 2d 481
(S.D.N.Y. 2003) (finding an unsigned confidentiality agreement
does not create a duty of trust and confidence under the misappropriation theory).

54a
Defendant and Regado and C5 Research. As stated
above, a person has a duty of trust and confidence
under the misappropriation theory if he or she and
the source of the information have an “express agreement of confidentiality” or a “pre-existing fiduciary
relation . . . or its functional equivalent.” Chestman,
947 F.2d at 571. The Government asserts even if
Defendant’s confidentiality agreement did not create a
duty not to trade on shared non-public information
under Rule 10b5-2, the Defendant and C5 Research
had a fiduciary-like relationship creating liability
under the misappropriation theory. The Government
points to Defendant’s role as an investigator in C5
Research’s clinical trials as the basis for the fiduciarylike relationship. Defendant responds that an investigator is independent from the entity sponsoring a
clinical trial, and has a fiduciary relationship not with
the entity sponsoring the trial (C5 Research) but with
an independent institutional review board.
The indictment provides limited information about
Defendant’s relationship with C5 Research, stating
only that CCR entered into the Disclosure Agreement
“to evaluate CCR’s interest in participating in the
Trial,” and that C5 Research provided information
regarding the Trial to “Investigators and Study
Coordinators, including Kosinski.” Indictment ¶¶4, 8.
Defendant asks the Court to determine whether
Defendant and CCR were independent of C5 Research,
or whether Defendant “obtain[ed] access to [information regarding the Trial] to serve the ends of the
fiduciary relationship, [and] . . . bec[ame] duty-bound
not to appropriate the property for his own use.”
Chestman, 947 F.2d at 569.
The sole authority Defendant cites to assert his legal
independence from C5 Research is a case stating “the

55a
investigator who recruits the subjects, determines
their suitability, monitors their tolerance and reaction
and reports the results” is independent from the
sponsoring enterprise and answers only to his or her
“institutional review board.” Suthers v. Amgen Inc.,
441 F. Supp. 2d 478, 488 (S.D.N.Y. 2006). The
indictment does not allege that Defendant had such a
role on C5 Research’s drug trial.
Even if Defendant did have the investigatory role
contemplated in Suthers, Defendant obscures the fact
that the Indictment alleges he entered into two independent confidentiality agreements. In the Disclosure
Agreement, Defendant, on behalf of CCR, contracted
with Regado to receive information about the Trial to
“evaluate CCR’s interest in participating in the Trial,”
and agreed to “treat the information received confidentially.” Indictment at ¶ 4. In the Research Agreement,
Defendant, both individually and on behalf of CCR,
contracted with C5 Research as agent of Regado. Id. at
¶ 5. The Indictment does not state the terms of the
Research Agreement other than that it required
Defendant and CCR to “maintain in strict confidence
all confidential information . . . provided by C5
Research or Regado during the course of the Trial.” Id.
Defendant conflates the interests of Regado and C5
Research and his distinct duty to each under each
agreement. While the evidence may show that Defendant was responsible for “recruit[ing] the subjects,
determin[ing] their suitability, monitor[ing] their
tolerance and reaction and report[ing] the results” of
the Trial (Suthers, 411 F. Supp. 2d at 488), such
evidence would not nullify his duty under each agreement to maintain Trial-related information in confidence. In addition, such evidence may not nullify other
fiduciary-like duties under the Disclosure Agreement

56a
or Research Agreement which are yet to be discovered,
as the parties have not produced either agreement to
the Court.
Defendant asks the Court to “look beyond the face of
the indictment and dr[aw] inferences as to the proof
that would be introduced by the government at trial”
to establish the duty of trust and confidence. Alfonso,
143 F.3d at 776.
“[S]uch an inquiry into the sufficiency of the evidence” on a motion to dismiss would be “premature . . .
[u]nless the government ha[d] made what can fairly be
described as a full proffer of the evidence it intends to
present at trial” to establish the duty of trust and
confidence, which it has not done here. Id. The Court
may not weigh the sufficiency of potential evidence at
this juncture; Defendant’s Motion to Dismiss on the
ground that he did not have a fiduciary-like relationship with C5 Research is DENIED.
IV. Conclusion
For the foregoing reasons, Defendant’s Motion to
Dismiss the Indictment is DENIED.
It is so ordered this 16th day of August 2017, at
Hartford, Connecticut.
/s/
Vanessa L. Bryant, U.S.D.J.

57a
APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
————
Criminal No. 3:16-CR-00148 (VLB)
————
UNITED STATES OF AMERICA
v.
EDWARD KOSINISKI
————
May 11, 2018
————
Memorandum of Decision Denying
Defendant’s Motion for Judgment of
Acquittal and for New Trial
Before the Court is Defendant’s Motion for Judgment of Acquittal and for a New Trial. For the reasons
set forth below, Defendant’s Motion is DENIED.
I. Background
On August 3, 2016, a federal grand jury sitting in
New Haven, Connecticut returned an indictment
against Defendant Edward Kosinski charging him
with two counts of Insider Trading in violation of 17
C.F.R. Section 240.10b-5 and 15 U.S.C. Sections 78j(b)
and 78ff. [Dkt. 1 (Indictment).] Defendant entered a
plea of not guilty on both counts. [Dkt. 4.] Defendant
moved to dismiss the indictment for failure to state an
offense under Federal Rule of Criminal Procedure
12(b)(3), and the Court denied that motion in its
entirety. [Dkts. 26 (Motion to Dismiss); 35 (Order

58a
Denying Motion to Dismiss).] Jury selection was held
on November 7, 2017, and trial took place over five
days, on November 13, 14, 16, 17, and 27. [Dkts. 62,
64-66, 69, 72, 73.] The jury deliberated on the afternoon of November 27 and rendered a verdict of guilty
on November 28. [Dkts. 73, 75, 77.]
At trial, evidence was elicited that Regado Biosciences, Inc. (“Regado”), a publicly traded company,
engaged in a pharmaceutical clinical trial to test a new
drug to treat patients undergoing procedures for heart
attacks (the “Trial”). [Dkt. 87 at 136-38 (testimony of
Dr. Steven Zelenkofske).] The success of Regado
depended on the drug’s viability. Id. at 138.
On June 12, 2013, Defendant, on behalf of Connecticut Clinical Research, LLC (“CCR”), entered into a
Confidential Disclosure Agreement (the “CDA”) with
Regado. [Gov’t Ex. 1B.] The CDA granted CCR the
right to receive confidential, proprietary information
to “evaluate [CCR’s] interest in participating in the
[Trial],” and required CCR to “hold in confidence
and . . . not disclose to any person or entity any
Proprietary Information without the prior written
consent of [Regado]. Id. at 1. The CDA also required
Defendant to “use such Proprietary Information only
for the Business purpose and shall not use, disclose
or exploit such Proprietary Information for its own
benefit.” Id.
On January 29, 2014, Defendant entered into a
Clinical Study and Research Agreement (the “CSRA”)
with C5 Research, an authorized agent of Regado.
[Gov’t Ex. 4.] Defendant executed the CSRA both
individually, as a principal investigator for the Trial,
and on behalf of CCR. Id. As a principal investigator,
Defendant administered the experimental drug to his
patients and reported their reactions to the drug to

59a
Regado through C5 Research. Id. at 3-4; [Dkt. 86
(Testimony of Terri Zito) at 86-87.] Defendant also
agreed to “supervise the conduct of the [Trial]” at one
of multiple locations where the Trial was conducted.
[Gov’t Ex. 4 at 3; Zito Testimony at 87.] The CSRA
“embodie[d] the entire understanding between [Defendant, Regado, and CCR]” and “superseded . . . any prior
or contemporaneous negotiations, either oral or written.” Id. at 16. In a section titled “Restrictions on Use
and Disclosure,” the CSRA required CCR and Defendant to “maintain in strict confidence all . . . confidential
information” provided by C5 Research or Regado
during the course of the Trial. [Gov’t Ex. 4 at 7.]
The CSRA did not include explicit language prohibiting use of confidential information for personal
financial gain; nor did it include a “carve out” explicitly
allowing principal investigators to trade on confidential information, bet against Regado stock, or bet
against the Trial drug. [Id.; Zito Testimony at 129130.] Dr. Zelenofske, Regado’s chief medical officer,
testified that Regado “anticipated [that principal
investigators] wouldn’t use the confidential information [received about the Trial] for anything,” and
that Regado “never really thought about [principal
investigators] trading in stock” because Regado
“assumed nobody would do that.” [Zelenkofski Testimony at 158-59.] When asked why Regado did not
contemplate principal investigators using confidential
information for securities trades, Dr. Zelenkofske
explained: “[W]hen you participate as an investigator
in a trial, it’s a research agreement, and you’re asking
patients to put their lives at stake when they participate, and it does not really make sense for somebody
to be using that information to do anything other than
take care of their patients and conduct the study
appropriately.” Id. at 159.

60a
As a principal investigator, Defendant was allowed
to own, but was required to disclose his ownership of,
stock in Regado. [Def. Ex. 20.] Specifically, Defendant
was required to complete a Trial Financial Disclosure
form reporting any “significant equity interest” in
Regado held during the course of the Trial and for one
year following completion of the trial,” which “would
include, for example, . . . any equity interest . . .
exceeding $50,000.” Id. Defendant was required to
“promptly” update his Financial Disclosure Form to
report any change in his financial interests and arrangements during the course of the Trial or within one year
after the close of the Trial. Id. The financial disclosure
was required to ensure that principal investigators
had no “conflict of interest . . . that [might have] influence[d] the way [the principal investigator] conduct[ed]
the trial.” [Zito Testimony at 72.]
From October 2013 through May 2014, Defendant
purchased 40,000 shares of Regado stock. [Dkt. 88
(Testimony of Alexander Scoufis) at 152-53]. On
October 16, 2013, in an Application for Administrative
Approval to Conduct Research connected with the
Trial, Defendant reported that he held no shares of
Regado stock. [Gov’t Ex. 69 at 3, 9.] As of that date,
Defendant owned 4,000 shares of Regado stock.
[Scoufis Testimony at 156.]
On December 4, 2013, in a Trial Financial Disclosure Form, Defendant reported that he had no
significant equity interest in Regado. [Def. Ex. 20.]
Defendant’s ownership of Regado stock surpassed
$50,000 – with a total value of $64,530 – in February
2014. [Scoufis Tetsimony at 159.] Defendant did not
submit an updated Trial Financial Disclosure Form
reporting that he owned Regado stock in excess of
$50,000 until October 1, 2014. [Def. Ex. 58.]

61a
On June 29, 2014, C5 Research sent an email to
Defendant and other Trial investigators and study
coordinators which announced that multiple Trial
participants experienced allergic reaction and as a
result the Trial was being put on hold. [Gov’t Ex. 10.]
Regado’s trial of the prior generation of the study drug
had been terminated because patients experienced
allergic reactions. [Dkt. 87 (Testimony of Mary Ann
Sellers) at 9-10.] On June 30, 2014, Defendant sold all
of his 40,000 shares of Regado stock for approximately
$273,000. [Scoufis Testimony at 162-63, 68.] On July
2, 2014, Regado issued a press release publicly announcing for the first time that the Trial was paused pending
review of Trial participants’ allergic reactions. [Gov’t
Ex. 51.] The day after the announcement, Regado
stock prices dropped approximately 58 percent. [Scoufis
Testimony at 171, 174.] Defendant avoided a loss of
approximately $160,000 by selling his shares on June
30, 2014, prior to the press release informing the
public of the adverse information. [Scoufis Testimony
at 174.]
On July 29, 2014, C5 Research sent an email to
Defendant and other Trial investigators and study
coordinators which stated the Trial was put on hold
after a participant died. [Gov’t Ex. 14A-B.] On July 30,
2014, Defendant purchased 50 Regado put-option
contracts with a strike price of $2.50 and an expiration
date of October 18, 2014. [Scoufis Testimony at 18485.] On August 25, 2014, Regado issued a press release
announcing the Trial was permanently halted. [Def.
Ex. 55.] The following day, Regado’s price dropped 61
percent, to $1.15 per share. [Scoufis Testimony at 18789.] On August 28, 2014, Defendant purchased 5,000
shares of Regado stock at $1.13 per share and
exercised his put-option to sell them at $2.50, making
a profit of $5,600. Id. at 191-93.

62a
On June 14, 2016, Special Agent James McGoey and
another agent met with Defendant at his office and
discussed his securities transactions in June and
August of 2014. [Dkt. 89 (Testimony of James McGoey)
at 104.] In a second conversation, on August 3, 2016,
Agent McGoey called Defendant and told him a grand
jury indicted him on two counts of securities fraud. Id.
at 104-05. Defendant spontaneously reacted, stating
he had done a “stupid thing” and that he “didn’t feel
good about making those trades when he made them.”
Id. at 105. Defendant stated he was motivated to conduct the securities transactions by “greed and stupidity.” Id. at 105-06.
II. Standard Of Law
Federal Rule of Criminal Procedure 29 provides that
“[i]f the jury has returned a guilty verdict, the court
may set aside the verdict and enter an acquittal.” Fed.
R. Crim. P. 29(c)(2). “A Rule 29 motion should be
granted only if the district court concludes there is ‘no
evidence upon which a reasonable mind might fairly
conclude guilt beyond a reasonable doubt.’” U.S. v.
Irving, 452 F.3d 110, 117 (2d Cir.2006) (citation omitted); U.S. v. Cossette, 3:12-CR-232 (JBA), 2013 WL
5274349 (D. Conn. Sept. 18, 2013) (same). “A defendant challenging the sufficiency of the evidence that
was the basis of his conviction at trial ‘bears a
heavy burden,’” U.S. v. Hawkins, 547 F.3d 66, 70
(2d Cir.2008), as he “must show that when viewing the
evidence in its totality, in a light most favorable to the
government, and drawing all inferences in favor of the
prosecution, no rational trier of fact could have found
him guilty.” Irving, 452 F.3d at 117. Further, “it is well
settled that Rule 29(c) does not provide the trial court
with an opportunity to substitute its own determination of . . . the weight of the evidence and the reason-

63a
able inferences to be drawn for that of the jury.” U.S.
v. Cote, 544 F.3d 88, 99 (2d Cir.2008) (internal quotation marks and citation omitted). “The Court must
give full play to the right of the jury to determine
credibility.” Id.
Federal Rule of Criminal Procedure 33 provides
that, upon a defendant’s motion, a district court “may
vacate any judgment and grant a new trial if the
interest of justice so requires.” Fed. R. Crim. P. 33(a).
“In exercising the discretion so conferred, the court is
entitled to weigh the evidence and in so doing evaluate
for itself the credibility of the witnesses.” U.S. v.
Sanchez, 969 F.2d 1409, 1413 (2d Cir. 1992) (internal
quotation marks and citation omitted); U.S. v. Padilla,
511 F. App’x 8, 10 (2d Cir. 2013) cert. denied, 133 S.
Ct. 2815 (2013) (same). However, only where exceptional circumstances exist may the trial judge “intrude
upon the jury function of credibility assessment.”
Sanchez, 969 F.2d at 1414; U.S. v. Castelin, 3:11–CR–
183 JCH, 2013 WL 3540052 (D. Conn. July 10, 2013)
(same). “Even in cases involving a witness’s perjured
testimony, however, a new trial is warranted only if
‘the jury probably would have acquitted in the absence
of the false testimony.’” U.S. v. Truman, 688 F.3d 129,
141 (2d Cir. 2012) (quoting Sanchez, 969 F.2d at
1413–14). “The test is whether it would be a manifest
injustice to let the guilty verdict stand.” Sanchez, 969
F.2d at 1414 (internal quotation marks and citation
omitted). In other words, for a court to grant a motion
for a new trial after examination of the entire case,
“[t]here must be a real concern that an innocent person
may have been convicted.” Id. (internal quotation
marks and citation omitted).

64a
III. Analysis
In support of his Motion for Judgment of Acquittal
under Federal Rule of Criminal Procedure 29, Defendant asserts (1) a confidentiality agreement is insufficient to create a duty of trust and confidence
prohibiting Defendant from trading securities based
on confidential information; (2) Rule 10b5-2 should not
be applied in this case because it concerns only
familial and non-business relationships; (3) in addition to a confidentiality agreement, the law requires
Defendant to have a “fiduciary-like” relationship of
trust and confidence with Regado, which he did not
have; and (4) the Government failed to introduce evidence that Defendant willfully violated the prohibition
against insider trading. Defendant also asserts that, if
the Court declines to enter judgment of acquittal, the
Court should grant Defendant a new trial under
Federal Rule of Criminal Procedure 33.
The majority of Defendant’s Motion reasserts arguments raised and rejected by the Court in his Motion
to Dismiss the Indictment. [Dkts. 26 (Motion to Dismiss); 35 (Order Denying Motion to Dismiss).] Defendant reargues questions of law already decided by this
Court, including the scope of the duty of trust and
confidence under the misappropriation theory of liability and the application of SEC Rule 10b5-2. In
addition, Defendant raises a new argument that Rule
10b5-2 should not apply to this case because it only
applies to familial or non-business relationships, but
indicates no reason he could not have raised that
argument in his Motion to Dismiss, and the Court
discerns none.
Defendant appears to be using this Motion as an
avenue to seek reconsideration of the Court’s ruling
on the Motion to Dismiss. Such a motion would be

65a
untimely at this juncture, eight months after the
Court’s ruling on the Motion to Dismiss, after a full
trial on the merits and a jury verdict. See Local R.
Crim. P. 7(c) (stating motions for reconsideration shall
be filed within seven days of filing of the decision from
which relief is sought). In addition, such a motion
would not be meritorious, as Defendant cites no newly
discovered evidence, intervening change in law, or
manifest injustice which would result from the Court’s
failure to reconsider its prior ruling, and fails to meet
the strict standard for reconsideration. Shrader v.
CSX Transp. Inc., 70 F.3d 255, 257 (2d Cir. 1995) (“The
standard for granting a motion for reconsideration is
strict.”); Virgin Atl. Airways, Ltd. v. Nat’l Mediation
Bd., 956 F.2d 1245, 1255 (2d Cir. 1992) (stating three
primary grounds for reconsideration). A “motion for
reconsideration is not a means to reargue those issues
already considered when a party does not like the way
the original motion was resolved.” Doe v. Winchester
Bd. of Ed., No. 10 cv-1179, 2017 WL 662898, at *2 (D.
Conn. Feb. 17, 2017); Roman v. Leibert, No. 3:16-cv1988, 2017 WL 4286302, at *1 (D. Conn. Sept. 27,
2017) (same).
Defendant’s legal arguments do not discuss whether
sufficient evidence was presented at trial for a
reasonable mind to find the Defendant guilty beyond
a reasonable doubt, nor do they contemplate whether
the weight of the evidence elicited at trial renders the
guilty verdict a manifest injustice. See Irving, 452 F.3d
at 117 (discussing standard for a motion for judgment
of acquittal); Sanchez, 969 F.2d at 1413 (discussing
standard for a motion for new trial). Rather, Defendant seeks to raise repetitive arguments on matters of
law inappropriate at this juncture. The Court will not
now reiterate its previous ruling on Defendant’s
arguments on matters of law previously raised and

66a
already decided. The Court will consider Defendant’s
challenge to the sufficiency of the evidence at trial:
specifically that acquittal is appropriate because the
Government failed to introduce evidence from which a
reasonable jury could find the Defendant willfully
violated the prohibition against insider trading.
A. Defendant Acted Willfully
Defendant relies on the language of the CDRA to
assert he did not willfully violate the insider trading
laws. Defendant asserts that, because the Clinical
Study and Research Agreement (“CSRA”) did not
expressly prohibit Defendant’s use of confidential
information, Defendant did not willfully defraud
Regado by using that confidential information in his
securities transactions. [See CSRA at 7 (“Facility and
Principal Investigator will maintain in strict confidence all of the Confidential Information and will
disclose the Confidential Information only” to an enumerated subset of parties).] Defendant also emphasizes that he was permitted to own stock in Regado.
[Defense Ex. 20 (Financial Disclosure Form).]
The Government does not dispute that the CSRA
governed Defendant’s relationship with Regado or
that Defendant was allowed to own stock in Regado.
However, the Government asserts neither of these
facts establishes that Defendant did not willfully violate the insider trading laws.
The Second Circuit has articulated the willfulness
requirement for insider trading as “a realization on
the defendant’s part that he was doing a wrongful act
under the securities laws . . . in a situation where
the knowingly wrongful act involved a significant risk
of effecting the violation that has occurred.” United
States v. Cassese, 428 F.3d 92, 98 (2d Cir. 2005)

67a
(quoting United States v. Peltz, 433 F.2d 48, 55 (2d Cir.
1970). The willfulness requirement is met if the
government establishes general awareness of wrongful conduct, “which may exist even if a defendant
believes his chicanery is in technical compliance with
the law.” United States v. Chiarella, 588 F.2d 1358,
1371 (2d Cir. 1979). The Court finds that sufficient
evidence was elicited at trial for a reasonable jury to
find that Defendant acted willfully.
The jury heard evidence that Defendant is highly
educated, that he read and understood documents
which required him to disclose and periodically update
his stock ownership, and that he signed multiple forms
failing to disclose his stock ownership. In particular,
the jury heard evidence that Defendant submitted an
inaccurate Application for Administrative Approval to
Conduct Research in October 2013, stating he held no
Regado stock when in actuality he held 4,000 shares.
[Gov’t Ex. 69; Scoufis Testimony at 152-53.] In addition, the jury heard evidence that Defendant did not
update his Trial Financial Disclosure Form until eight
months after his Regado stock ownership surpassed
$50,000. [Def. Ex. 58; Scoufis Testimony at 159.]
Defendant notes that he updated his disclosure two
days after receiving a letter from C5 Research stating
“[a]s a reminder: . . . [i]f any investigator has any
relevant financial interest changes related to Regado
Biosciences for 1 year following termination of the
study, please send updated Financial Disclosure
Forms to Regado.” [Def. Ex. 57.]
Defendant argues his disclosure two days after
receiving that reminder disproves willful violation of
the insider trading laws. However, the reminder did
not offer an additional explanation of Defendant’s
continuing duty to promptly disclose any financial

68a
interest in Regado. Defendant’s eventual disclosure
of his securities holdings establishes that he did
understand his ongoing duty to disclose, and does not
explain away his failure to do so in the preceding eight
months.
In addition to evidence regarding his failure to
timely disclose his securities holdings, the jury
heard evidence of the short timeframe between when
Defendant received confidential information about the
Trial and when he made his securities transactions.
The jury heard evidence that Defendant received
confidential information that several Trial participants experienced allergic reactions, and one day later
sold $40,000 shares of Regado stock, avoiding a loss of
approximately $160,000. [Scoufis Testimony at 16274.] The jury also heard evidence that Defendant
received confidential information that a Trial participant died, two days later purchased 50 Regado putoption contracts, and then exercised those put-options
three days after the Trial information was made public, profiting over $5,600. [Scoufis Testimony at 18489.] The jury also heard evidence that principle investigators are expected not to trade on confidential
information. [Selenkofske Testimony at 158-59.]
Finally, the jury heard testimony from Special Agent
McGoey that when he confronted Defendant about his
securities transactions, Defendant stated he was
motivated to conduct the securities transactions by
“greed and stupidity.” [McGoey Testimony at 105-06.]
After the jury heard the above evidence, the Court
instructed the jury as to willfulness:
[To] act willfully means to act knowingly and
purposefully with the intent to do something
the law forbids, that is, with bad purpose

69a
either to disobey or disregard the law . . . It is
not required that the Government show that
Dr. Kosinski, in addition to knowing what he
was doing and deliberately doing it, also knew
that he was violating some particular statute.
[Dkt. 91 at 171-72.] That definition of willfulness
articulates the Second Circuit’s definition of the
scienter requirement for insider trading as stated
above. See United States v. Cassese, 428 F.3d at 98.
As discussed supra, to succeed on a motion for
judgment of acquittal, the defendant must show that
“when viewing the evidence in its totality, in a light
most favorable to the government, and drawing all
inferences in favor of the prosecution, no rational trier
of fact could have found him guilty.” Irving, 452 F.3d
at 117. In light of the evidence elicited at trial, the
Court cannot say there was “no evidence upon which a
reasonable mind might fairly conclude” that Defendant acted willfully. Id. at 117. Defendant’s Motion for
Judgment of Acquittal is accordingly DENIED.
B. A New Trial is Not Warranted
Defendant spends the final two paragraphs of his
Motion arguing that, if the Court denies his motion for
judgment of acquittal, the Court should order a new
trial. In support, Defendant states the record does not
contain sufficient evidence to support the jury’s verdict, and that Defendant’s conviction is a manifest
injustice. [Motion at 34-35 (citing United States v.
Ferguson, 246 F.3d 129, 133 (2d Cir. 2001) (discussing
standard for a new trial under Fed. R. Crim. P. 33);
United States v. Lopac, 411 F. Supp. 2d 350, 359
(S.D.N.Y. 2006) (same)).] The Government responds
that a new trial is only granted in extraordinary
circumstances, and that in evaluating such a motion

70a
the Court should not usurp the role of the jury. [Opp.
at 16-17.]
Defendant has not explained his basis for asserting
that his conviction is manifestly unjust, and has not
identified any exceptional circumstance requiring a
new trial here. See Sanchez, 969 F.2d at 141 (stating a
new trial is only appropriate where exceptional
circumstances exist); Castelin, 2013 WL 3540052
(same). Neither case Defendant cites in support of his
Rule 33 motion is analogous. In Ferguson, the first
case Defendant cites, the Second Circuit found no
abuse of discretion where the District Court held there
was “no credible evidence” that the defendant acted
with the expectation of gaining gang membership, as
was required under the statute of indictment, where
the Government “abandoned” its motive theory at trial
and sought to establish the expectation of gang
membership through evidence that the defendant
attempted to murder someone of strategic importance
to a gang. Id. at 135.
In Lopac, the second case Defendant cites, the
Southern District of New York ordered a new trial
concerning the defendant’s participation in a criminal
conspiracy to distribute marijuana. 411 F. Supp. 2d at
361-62. There was no evidence that the defendant
expressed an intent to join the conspiracy, no evidence
that the defendant received any financial compensation for participation in the conspiracy, and no evidence that the defendant knew the Federal Express
packages she received on behalf of a conspiracy
member contained marijuana. Id. at 366-67.
Unlike Sanchez and Lopac, this is not a case where
no credible evidence was put before the jury which
supported Defendant’s guilt. This is not a case
in which testimony supporting the conviction was

71a
“patently incredible or defie[d] physical realities,”
Ferguson, 246 F.3d at 134 (explaining what might
constitute exceptional circumstances warranting a
new trial), or in which the verdict hinged on perjured
testimony. See, e.g., U.S. v. Truman, 688 F.3d 129, 141
(2d Cir. 2012) (“Even in cases involving a witness’s
perjured testimony, however, a new trial is warranted
only if ‘the jury probably would have acquitted in the
absence of the false testimony.’”). Rather, as stated
above, evidence supporting a reasonable jury’s finding
of guilt included: the timing of Defendant’s transactions in relation to when he received confidential
information, his intelligence and sophistication, his
knowledge that he was required to disclose his
holdings, his failure to timely disclose his holdings,
and his admission to Agent McGoey that he traded out
of greed and stupidity. The Court is not “convinced
that the jury has reached a seriously erroneous result
or that the verdict is a miscarriage of justice.” United
States v. Triumph Cap. Grp., Inc., 544 F.3d 149, 159
(2d Cir. 2008) (stating Rule 33 standard). On the
contrary, the Court is persuaded that the jury had
ample evidence from which to have found Defendant
guilty, including the timing of his trades, his failure to
timely report his Regado stock ownership, and his
admissions when advised that he had been indicted.
Defendant’s motion for a new trial is DENIED.1
1

Defendant moved for a judgment of acquittal at the close of
the Government’s case-in-chief and simultaneously moved for
leave to file an amicus curiae brief authored by Mark Cuban.
[Dkts. 67-68.] On December 22, 2017, Defendant filed a renewed
Motion for Judgment of Acquittal and for New Trial, explaining
that he was supplementing his prior arguments with evidence
elicited at trial. [Dkt. 85.] The Court finds Defendant’s initial
motions as moot, as Defendant incorporated his prior briefing
into his second Motion for Judgment of Acquittal and for New

72a
IV. Conclusion
For the foregoing reasons, Defendant’s Motion for
Judgment of Acquittal and for New Trial is DENIED.
It is so ordered this 11th day of May 11, 2018, at
Hartford, Connecticut.
/s/
Vanessa L. Bryant, U.S.D.J.

Trial and the prior motions raise no arguments not contemplated
herein.

73a
APPENDIX D
15 U.S.C. § 78j provides:
Manipulative and deceptive devices
It shall be unlawful for any person, directly or indirectly, by the use of any means or instrumentality of
interstate commerce or of the mails, or of any facility
of any national securities exchange-(a)(1) To effect a short sale, or to use or employ any
stop-loss order in connection with the purchase or sale,
of any security other than a government security, in
contravention of such rules and regulations as the
Commission may prescribe as necessary or appropriate in the public interest or for the protection of
investors.
(2) Paragraph (1) of this subsection shall not
apply to security futures products.
(b) To use or employ, in connection with the
purchase or sale of any security registered on a
national securities exchange or any security not so
registered, or any securities-based swap agreement
any manipulative or deceptive device or contrivance in
contravention of such rules and regulations as the
Commission may prescribe as necessary or
appropriate in the public interest or for the protection
of investors.
(c)(1) To effect, accept, or facilitate a transaction
involving the loan or borrowing of securities in contravention of such rules and regulations as the
Commission may prescribe as necessary or appropriate in the public interest or for the protection of
investors.
(2) Nothing in paragraph (1) may be construed to
limit the authority of the appropriate Federal banking

74a
agency (as defined in section 1813(q) of Title 12), the
National Credit Union Administration, or any other
Federal department or agency having a responsibility
under Federal law to prescribe rules or regulations
restricting transactions involving the loan or borrowing of securities in order to protect the safety and
soundness of a financial institution or to protect the
financial system from systemic risk.
Rules promulgated under subsection (b) that prohibit
fraud, manipulation, or insider trading (but not rules
imposing or specifying reporting or recordkeeping
requirements, procedures, or standards as prophylactic measures against fraud, manipulation, or insider
trading), and judicial precedents decided under subsection (b) and rules promulgated thereunder that
prohibit fraud, manipulation, or insider trading, shall
apply to security-based swap agreements to the same
extent as they apply to securities. Judicial precedents
decided under section 77q(a) of this title and sections
78i, 78o, 78p, 78t, and 78u-1 of this title, and judicial
precedents decided under applicable rules promulgated under such sections, shall apply to securitybased swap agreements to the same extent as they
apply to securities.
* * *

75a
17 C.F.R. § 240.10b–5 provides:
Employment of manipulative and deceptive
devices.
It shall be unlawful for any person, directly or
indirectly, by the use of any means or instrumentality
of interstate commerce, or of the mails or of any facility
of any national securities exchange,
(a) To employ any device, scheme, or artifice to
defraud,
(b) To make any untrue statement of a material fact
or to omit to state a material fact necessary in order to
make the statements made, in the light of the circumstances under which they were made, not misleading,
or
(c) To engage in any act, practice, or course of
business which operates or would operate as a fraud
or deceit upon any person,
in connection with the purchase or sale of any security.
* * *

76a
APPENDIX E
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
————
Case No.: 3:16-CR-00148 (VLB)
————
UNITED STATES OF AMERICA,
vs.

Plaintiff,

EDWARD J. KOSINSKI,
Defendant.
————
November 27, 2017
————
TRIAL – DAY 5
————
THE HON. VANESSA L. BRYANT
United States District Judge
————
THE COURT:
* * *
I’m now going to instruct you on the elements of the
offense.
In order to meet its burden of proof, the Government
must establish beyond a reasonable doubt the
following elements of the crime of securities fraud:
First, that, in connection with the purchase or sale
of the security, the defendant employed a device,

77a
scheme, or artifice to defraud or engaged in an act,
practice, or course of dealing that operated or would
operate as a fraud or deceit upon a purchaser or seller
of the specific security.
The second element is that the defendant acted
willfully, knowingly, and with the intent to defraud.
The third element is that the defendant used or
caused to be used any means or instrument of transportation or communication in interstate commerce or
the mails or any facility of a national securities
exchange in furtherance of the fraudulent conduct.
[166] I will now instruct you on each of these
elements in detail.
The first element that the Government must prove
beyond a reasonable doubt is that, in connection with
the purchase and sale of a specific security, Dr.
Kosinski deployed a scheme or artifice or engaged in
an act, practice, or course of business that operated or
would operate as a fraud or deceit on a purchaser or
seller of the specific security.
A device, scheme, or artifice is merely a plan for the
accomplishment of any fraudulent objective. The
device, scheme, or artifice that the indictment alleges
the defendant employed in this case is known as
“insider trading.”
Insider trading occurs when a person misappropriates material nonpublic information and then trades
in securities in breach of the duty of trust and
confidence which he or she owes to the source of that
information. When a person has material nonpublic
information and his duty of trust and confidence to the
source of the information prevents him from disclosing

78a
that [167] information, the law forbids him from
buying or selling the securities in question.
In order to find that the Government has established the first element that Dr. Kosinski engaged in
an inside trading scheme, the Government must prove
the following beyond a reasonable doubt:
First, that Dr. Kosinski had a duty of trust and
confidence to Regado Bioscience, Inc., which I will
refer to herein as “Regado.”
And, second, that Dr. Kosinski violated his duty of
trust and confidence in connection with trading in
Regado stock or options by using material nonpublic
information that he obtained by virtue of his agreement with Regado through its authorized agent
Cleveland Clinic Foundation.
I will now define for you several of the relevant
terms I just used.
The Government must establish beyond a reasonable doubt that Dr. Kosinski had a duty of trust and
confidence to Regado. That means that he was reasonably expected to keep the material information at
issue [168] confidential or at least that the relationship between the defendant and Regado reasonably
implied such a duty. Whether such a duty of trust and
confidence existed between the defendant and Regado
is a question of fact for you to determine.
The duties and obligations between the defendant
and Regado may have been expressed explicitly in
writing or may be inferred from the nature and
circumstances of their relationship including through
any agreement with Regado through its authorized
agent Cleveland Clinic Foundation.

79a
Dr. Kosinski and Regado must each recognize the
existence of a duty of trust and confidence, although
the understanding or mutual recognition may be
either express or implied. A mere working relationship
is not sufficient to satisfy this element; however, a
person has a requisite duty of trust and confidence
whenever a person agrees to maintain information in
confidence.
If you find that Dr. Kosinski had a duty of trust and
confidence to Regado, then you must next consider
whether the Government has [169] proved beyond a
reasonable doubt that Dr. Kosinski breached the duty
of trust and confidence by using material nonpublic
information he received directly or indirectly from
Regado in connection with trading in Regado stock or
options.
I will now define for you the terms “material” and
“nonpublic.”
* * *

